<html>
<title> - H.R. 1171 AND S. 363: AND OVERSIGHT ON HARRIS NECK NATIONAL WILDLIFE REFUGE AND HOW THE FEDERAL GOVERNMENT OBTAINED TITLE TO THIS LAND AND PROMISES MADE TO THE ORIGINAL LANDOWNERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 H.R. 1171 AND S. 363: AND OVERSIGHT ON HARRIS NECK NATIONAL WILDLIFE 
REFUGE AND HOW THE FEDERAL GOVERNMENT OBTAINED TITLE TO THIS LAND AND 
               PROMISES MADE TO THE ORIGINAL LANDOWNERS

=======================================================================

                   LEGISLATIVE AND OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, December 15, 2011

                               __________

                           Serial No. 112-89

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      




                  U.S. GOVERNMENT PRINTING OFFICE
72-101                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8deafde2cdeef8fef9e5e8e1fda3eee2e0a3">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio



                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, December 15, 2011.....................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     6
        Prepared statement of....................................     7
        Background submitted for the record on the Harris Neck 
          National Wildlife Refuge...............................    62
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     8
        Prepared statement of....................................     9

Statement of Witnesses:
    Bambach, Dorothy, Conservation Chair, Friends of the Savannah 
      Coastal Wildlife Refuges, Inc..............................    15
        Prepared statement on the Harris Neck National Wildlife 
          Refuge.................................................    16
    Bamford, Dr. Holly, Deputy Assistant Administrator for Ocean 
      Services and Coastal Zone Management, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce....    46
        Prepared statement on H.R. 1171 and S. 363...............    48
    Dohner, Cynthia, Southeast Regional Director, U.S. Fish and 
      Wildlife Service, U.S. Department of the Interior..........    11
        Prepared statement on the Harris Neck National Wildlife 
          Refuge.................................................    12
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................     2
        Prepared statement on H.R. 1171..........................     3
    Gilman, Paul, Ph.D., Senior Vice President and Chief 
      Sustainability Officer, Covanta Energy Corporation.........    53
        Prepared statement on H.R. 1171 and S. 363...............    54
    Greer, Evelyn, Board Member, Harris Neck Land Trust..........    28
        Prepared statement on the Harris Neck National Wildlife 
          Refuge.................................................    28
    Kelly, David M., Project Coordinator, Harris Neck Land Trust.    19
        Prepared statement on the Harris Neck National Wildlife 
          Refuge.................................................    20
    Kingston, Hon. Jack, a Representative in Congress from the 
      State of Georgia, Oral statement of........................    10
    Moran, Wilson W., Direct Descendent of Robert Delegal, Board 
      Member, Harris Neck Land Trust LLC.........................    24
        Prepared statement on the Harris Neck National Wildlife 
          Refuge.................................................    25
    Relaford, Winston, Board Member, Harris Neck Land Trust......    28
        Prepared statement on the Harris Neck National Wildlife 
          Refuge.................................................    29
    Thorpe, Rev. Robert H., Pastor, Peaceful Zion Church, and 
      Former Board Chairman, Harris Neck Land Trust..............    26
        Prepared statement on the Harris Neck National Wildlife 
          Refuge.................................................    27

                                     



 LEGISLATIVE HEARING ON H.R. 1171, TO REAUTHORIZE AND AMEND THE MARINE 
  DEBRIS RESEARCH, PREVENTION, AND REDUCTION ACT. ``MARINE DEBRIS ACT 
 REAUTHORIZATION AMENDMENTS OF 2011''; AND S. 363, A BILL TO AUTHORIZE 
 THE SECRETARY OF COMMERCE TO CONVEY PROPERTY OF THE NATIONAL OCEANIC 
AND ATMOSPHERIC ADMINISTRATION TO THE CITY OF PASCAGOULA, MISSISSIPPI, 
 AND FOR OTHER PURPOSES; AND OVERSIGHT HEARING ON HARRIS NECK NATIONAL 
 WILDLIFE REFUGE AND HOW THE FEDERAL GOVERNMENT OBTAINED TITLE TO THIS 
           LAND AND PROMISES MADE TO THE ORIGINAL LANDOWNERS.

                              ----------                              


                      Wednesday, December 15, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Sablan, Bordallo, and 
Hanabusa.
    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum.
    Good morning. Today, we are going to have both an oversight 
and a legislative hearing. The oversight portion of the hearing 
will be the second panel, which will discuss the ``Harris Neck 
National Wildlife Refuge and How the Federal Government 
Obtained Title to This Land and Promises Made to the Original 
Landowners.''
    The third panel will be a legislative hearing on two bills, 
H.R. 1171, the Marine Debris Act Reauthorization Amendments of 
2011, and S. 363, a bill to authorize the Secretary of Commerce 
to convey property of the National Oceanic and Atmospheric 
Administration to the City of Pascagoula, Mississippi.
    Dr. Fleming. Since we are dealing with a few topics today, 
I would suggest that we go ahead with our first panel and then 
give our opening statements for the oversight and legislative 
issues preceding each of those panels.
    On our first panel today, we will hear from the sponsor of 
H.R. 1171, our colleague, Congressman Sam Farr.
    Welcome, sir. Like all witnesses, your written testimony 
will appear in full in the hearing record, so I ask that you 
keep your oral statements to 5 minutes, as outlined in our 
invitation letter to you and under Committee Rule 4(a). Our 
microphones are not automatic, and so please press the button 
when you are ready to begin.
    I also want to explain how our timing lights work, and I 
think you are probably familiar with that. Four minutes under 
green, 1 minute under yellow, and then red. We would certainly 
ask that you wrap up your testimony at that point.
    So I welcome our friend and colleague, Mr. Sam Farr from 
California. And, sir, your 5 minutes are ready to go.

 STATEMENT OF THE HON. SAM FARR, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Farr. Well, thank you very much, Chairman Fleming and 
Ranking Member Sablan. I used to be a member of this Committee, 
and it is a pleasure to be back. I have always thought that 
this Committee has one of the most interesting jurisdictions in 
the world because, with the exclusive economic zones throughout 
all of the territories and atolls and everything that the 
United States owns, the United States has more jurisdiction of 
the ocean than any country in the world, and that is a big 
responsibility.
    And I bring to you today a bill that is reauthorizing what 
is already in the law, a bill that was created by the Chairman 
in the Senate, Inouye, who obviously knows the issues from 
representing Hawaii, and the late Senator Ted Stevens, who was 
a big advocate for healthy oceans in Alaska. And that is why my 
principal cosponsor on this bill is Don Young. And I am very 
pleased to work with him on this.
    This legislation is, as I said, a reauthorization. It has 
been referred to two Committees: the Transportation and 
Infrastructure Committee and this Committee. The Infrastructure 
Subcommittee on Coast Guard and Maritime Transportation held a 
hearing in July, and the Chairman, Frank LoBiondo, became a 
cosponsor with that hearing. And I hope that you will all join 
in this, too. I don't think there is much controversy here. It 
is bipartisan. I have 31 cosponsors, including 8 members of 
this Subcommittee.
    What I just wanted to point out is that we have an 
incredible problem. Mr. Sablan certainly knows this, from the 
Northern Marianas. But this is the northern Hawaiian Islands, 
the sanctuary out there. There is absolutely nothing out there. 
I mean, there are no man-made facilities, there are no 
communities. This just washes up from the beach, just what is 
in the ocean. And our oceans have become, frankly, a dumping 
ground, and all that stuff that is dumping into the oceans--I 
mean, it is almost a landfill in the ocean--is creating all 
kinds of economic problems as well as health-risk problems to 
the environment.
    So this bill, in reauthorizing, is supported by a large 
group, a diverse group, from the American Chemistry Council, 
the Chamber of Shipping of America, the Jersey Coast Anglers 
Association, all the way to, obviously, the Ocean Conservancy 
group.
    What is happening is the dumping of literally 14 billion 
pounds of trash every year into the ocean is accumulating, and 
we have to find ways, one, to clean out what is out there that 
we can get a hold of, and, two--and where it is and where it is 
going--but we also have to monitor what is happening. And with 
the tragic tsunami in Japan, we have estimates of 20 million 
tons of debris that are floating our way as a result of that 
tsunami, which just went in and came out and everything that 
came out with it ended up in the ocean.
    We also saw--I remember when I was on this Subcommittee, 
Congressman Saxton from New Jersey, at the time was just 
adamant about what happened in his State following the medical 
waste that washed ashore in the 1980s and essentially changed 
the whole environment for New Jersey because it cost them about 
$3.6 billion in tourism revenue that was lost when nobody 
wanted to go to the beaches because of all the medical waste 
that was washed up. We found in the Northeast that the lobster 
industries lost about $250 million from fishing gear that is 
there.
    So this bill--and I have to wrap it up--is a 
reauthorization, and it updates the language. And I would hope 
that we would get strong support for it. I would be glad to 
answer any questions you might have.
    I would like to also show you one other photograph here of 
the amount of fishing gear that was acquired. This is what they 
call ghost nets. We are locating them and dragging them out, 
because they just continue to catch fish and, you know, for 
nothing but to wipe them out. So fishermen hate these things 
because it is competitive with their catch, so that is why you 
have such strong support by the fishing community.
    [The prepared statement of Mr. Farr follows:]

Statement of The Honorable Sam Farr, a Representative in Congress from 
                        the State of California

    Thank you Chairman Fleming and Ranking Member Sablan for holding a 
hearing on the Marine Debris Act Reauthorization Amendments of 2011 
(H.R. 1171), which I introduced in March. I sincerely appreciate the 
bill's bipartisan support from 31 cosponsors, including 8 Members of 
this Subcommittee on both sides of the aisle.
    Mr. Chairman, our beaches and oceans have turned into landfills. 
Prime tourist destinations, which were once pristine coastal 
environments, are now littered with garbage. According to the National 
Academy of the Sciences, we dump more than 14 billion pounds of trash 
into the ocean every year. This trash, which is formally referred to as 
marine debris, spans everything from derelict fishing gear that has 
been lost at sea, to large kitchen appliances, to single-use bottles 
and plastic bags.
    The issue of marine debris is critical now more than ever due to 
the tragic tsunami that occurred off of the coast of Japan in March 
2011. According to recent estimates, between 5 and 20 million tons of 
debris resulting from the tsunami is floating across the Pacific Ocean. 
Models developed by the National Oceanic Atmospheric Administration 
(NOAA) to track and predict the movement of this debris suggest that it 
could wash up on the shores of the Northwest Hawaiian Islands by this 
winter and the west coast of the United States by 2013.
    Marine debris is not just an eyesore. It has enormous economic 
impacts. For instance, in the summers of 1988 and 1989, New Jersey and 
New York experienced beach closures when medical marine debris washed 
ashore. Estimates suggest that the total loss in tourism revenues was 
as much as $3.6 billion.
    Another stark example of marine debris' economic impacts is 
derelict fishing gear. Studies show that over $250 million in 
marketable U.S. lobster is lost each year in derelict fishing gear. 
Additionally, in the Puget Sound, a single derelict gillnet will catch 
and kill 4,368 crabs over its lifetime. In a time where our fishermen 
are already facing economic challenges, losses of this magnitude are 
simply unacceptable.
    Marine debris also causes economic harm to boaters. Submerged 
debris poses significant navigational hazards and results in up to $792 
million per year in damages to vessels resulting from boating 
accidents.
    The only way to protect these industries and ocean-users and their 
contributions to the national economy is to reduce the amount of marine 
debris in the environment and to prevent it from getting there in the 
first place. In 2006, Congress first recognized the significance of 
this issue and took decisive action to elevate marine debris as a 
national concern by passing the original Marine Debris Research, 
Prevention, and Reduction Act of 2006. This legislation was introduced 
in the Senate by Senators Daniel Inouye and Ted Stevens and later 
passed in the House by voice vote under Republican leadership. The law 
signed by President Bush strengthened federal efforts to address this 
serious problem by establishing the National Oceanic Atmospheric 
Administration (NOAA) Marine Debris Program.
    Now it is time to reauthorize this law, which is the purpose of 
H.R. 1171, the Marine Debris Act Reauthorization Amendments of 2011. 
H.R. 1171 would ensure that the NOAA Marine Debris Program continues to 
address marine debris and its impacts on the economy, navigation 
safety, and the marine environment. This legislation continues the 
Interagency Marine Debris Coordinating Committee (IMDCC), an 
interagency partnership led by NOAA that is intended to avoid 
duplicative efforts. As the lead marine debris agency, NOAA sets 
research priorities, leads derelict gear removal activities, 
establishes public private partnerships, and develops non-regulatory 
outreach strategies to prevent marine debris. This work also requires 
that NOAA coordinate with and serve as a resource to regional, state, 
local, territorial, and tribal entities
    The reauthorization also amends the original law in order to allow 
NOAA to more comprehensively address the issue of marine debris. First, 
the reauthorization includes a formal definition of marine debris, 
formulated in consultation with NOAA and the U.S. Coast Guard (USCG), 
as mandated by the original law. As noted in NOAA's submitted 
testimony, the desired definition has been updated since the 
introduction of this Act, and I fully support amending the definition 
to be consistent with what NOAA and USCG have since agreed on. 
Reauthorization also requires NOAA to improve efforts to reduce and 
prevent land-based sources of marine debris, where 80% of debris in the 
ocean originates. Next, H.R. 1171 calls upon NOAA develop products and 
tools that will be available to the public, such as protocols for 
monitoring marine debris. Finally, the language suggests that NOAA 
cooperate with the international community, which has and will be 
critical in dealing with Japan's tsunami debris.
    Since its inception in 2006, the NOAA Marine Debris Program has 
demonstrated its ability to successfully minimize the consequences of 
marine debris to our national economy through countless examples. The 
tourism industry, for instance, benefits from the annual International 
Coastal Cleanup, which leaves beaches trash free and more desirable as 
vacation destinations. This event, which is organized by the Ocean 
Conservancy and partially funded by the NOAA Marine Debris Program, is 
the world's largest single day marine debris cleanup event. In 2010, 
the United States had over 240,000 volunteers from every territory and 
all 50 states who cleaned up 4.5 million pounds of trash from our 
coastlines. In Louisiana alone, volunteers removed over 7,500 pounds of 
debris from the beaches, while in Florida's 2nd Congressional district, 
over 1,857 people participated.
    Funding for the International Cleanup comes from a portion of the 
Program's budget that is dedicated to grants. From 2005-2009, the NOAA 
Marine Debris Program provided grant funding for 86 projects with only 
$6.3 million. As a result of the minimum 50% matching requirement that 
was put in place by the original law, these funds have leveraged an 
additional $7.9 million in non-Federal funds. H.R. 1171 maintains this 
matching requirement and ensures that projects like the International 
Coastal Cleanup continue in order to safeguard the coastal tourism 
economy.
    The NOAA Marine Debris Program also promotes the fishing economy. 
Derelict fishing gear can have devastating effects on the value of 
fisheries. When traps, nets, pots, and other gear are lost at sea, they 
continue to catch and kill valuable, harvestable species in a process 
called ghost fishing. Although the Marine Debris Program has already 
made significant strides in working with the fishing community to 
address and recover derelict fishing gear, the Reauthorization 
specifies that NOAA must ``develop effective non-regulatory measures 
and incentives to cooperatively reduce the volume of lost and discarded 
fishing gear and aid in its recovery.'' These efforts are becoming 
increasingly critical, as a recent economic study found that for each 
derelict net that is retrieved from the marine environment, the fishing 
industry saves $6,285 due to reduced mortality of target species. This 
demonstrates that ignoring the problem will simply cost the fishing 
industry money.
    In the Chesapeake Bay, research shows that there could be as many 
as 120,000 derelict traps that are actively ghost fishing. For this 
reason, the NOAA Marine Debris Program has undertaken an effort to 
partner with fishermen, academia, and the private sector to reduce the 
prevalence of derelict gear to ensure that valuable seafood isn't lost. 
Through a NOAA partnership with the Virginia Institute of Marine 
Sciences, fishermen in the Chesapeake Bay region are paid to find to 
find and retrieve derelict traps, and thus far, over 34,000 derelict 
pots have been removed. In sum, this project has reduced the economic 
impacts of derelict gear on the fishing industry, while creating jobs 
for watermen.
    In a separate effort to address derelict fishing gear, NOAA has 
engaged in a public-private partnership with two companies, Covanta 
Energy, of New Jersey and who will be testifying at the hearing, and 
Schnizter Steel Industries, of Hawaii. In this partnership called 
``Fishing for Energy,'' fishing gear recycling bins have been installed 
in 25 ports across the country. These bins provide a no-cost solution 
to fishermen for disposal of old fishing gear. This alternative to 
costly landfill disposal also provides fishermen with a voluntary 
incentive to retrieve any derelict gear they might come across while 
out on the water. Covanta Energy and Schnizter Steel then take the gear 
and recycle it in order to produce electricity. This public-private 
partnership provides another example of how the existing law has 
allowed NOAA to find efficient and effective solutions to the problem 
of marine debris, and the reauthorization will allow for these 
partnerships to be strengthened.
    Finally, NOAA is working to make boating a safer activity by 
reducing navigational hazards caused by marine debris. For example, 
following Hurricanes Katrina and Rita in the Gulf of Mexico, the 
increased abundance of submerged marine debris posed a significant 
navigational hazard to boaters and fishermen. To minimize this risk, 
NOAA partnered with USCG, the Louisiana Department of Natural 
Resources, and several private nautical mapping companies to survey 
over 1,500 square nautical miles along the Gulf Coast. Through this 
effort, over 7,000 submerged items were located and mapped in offshore 
fishing and shrimping grounds. The fishermen and boaters were then 
provided maps and information and outreach materials in order to help 
them reduce collisions, thus reducing the number of incidents that 
would require additional Federal response and resources.
    Navigational safety may also become a major issue in the Pacific as 
a result of Japan's tsunami. To prepare for this, the NOAA Marine 
Debris Program has provided information to the U.S. Department of 
Transportation for a Maritime Advisory concerning Japan tsunami debris. 
The advisory urges U.S.-flagged ships and mariners to be vigilant while 
transiting the North Pacific between Japan and the West Coast of the 
United States. The advisory includes information on potential types of 
debris and provides instructions for reporting significant sightings of 
floating debris. In addition, NOAA convened a meeting with IMDCC 
representatives in June 2011 in order to determine the role of each 
federal agency in a potential tsunami debris response. Representatives 
of the IMDCC have agreed to help NOAA in pursuing methods for assessing 
and tracking tsunami debris and have established a Japan tsunami 
workgroup.
    The examples provided here have resulted in strong support from the 
private sector and the fishing industry for the Reauthorization. 
Private sector and fishing industry entities including the American 
Chemistry Council, the Chamber of Shipping of America, and the New 
Jersey Coast Anglers Association have submitted support letters for 
H.R. 1171, which are attached to the end of this testimony.
    As the tsunami debris approaches the United States, Congress must 
take action to prepare by passing H.R. 1171. Existing law has allowed 
for the formation of successful partnerships both within the Federal 
government and between the Federal government and the private sector. 
These partnerships have successfully leveraged the resources and 
capacity of NOAA, enabling the Marine Debris Program to make 
significant strides in tackling the pervasive challenge of marine 
debris, with very limited resources. In fact, the NOAA Marine Debris 
Program truly serves as a model for how successful and cost-effective 
federal programs should operate.
    We must act now to ensure that this Program and its partnerships 
are not only maintained, but strengthened, and H.R. 1171 is the 
necessary vehicle to ensure our country can address the impacts of 
ocean trash on marine ecosystems, coastal economies, and navigation 
safety. Thank you again for this hearing, and I look forward to working 
with this subcommittee to move this legislation forward.
                                 ______
                                 
    Dr. Fleming. Well, I thank the gentleman.
    Mr. Sablan, do you have any questions?
    Mr. Sablan. I have just one, Mr. Chairman. Thank you.
    Dr. Fleming. OK. Sure. Go ahead.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And welcome, Congressman Farr. And thank you for your 
leadership in addressing marine debris.
    As you mentioned in your written testimony, marine debris 
resulting from the tragic tsunami off the coast of Japan is 
approaching the United States territories, including the 
Northern Marianas and Guam. Can you explain how your bill could 
help address this problem, please?
    Mr. Farr. Well, because of the authorization and because of 
the coordination among Federal agencies, what we do is we 
monitor it now. We monitor it by--we can tag it with satellite 
tags if it is big enough, if it is something on the surface. 
And that way, you know, you know where it is going.
    And then what we have been able to do by, like, retrieving 
these nets is, if you can retrieve it--and the Coast Guard is 
on mission. They have been very effective in retrieving nets. I 
work out of--I represent Monterey, California, a big fishing 
community. Fishermen have lost their nets. Those are very 
expensive; they are thousands and thousands of dollars. They 
get caught on dredges. And we are now having the original 
fishing boat that lost its net, because it only has the gear to 
be able to pull it out, they are going out with the Coast Guard 
and with the National Marine Sanctuary to retrieve it.
    So you have to know where it is, first. And, as you know, 
the oceans are vast and deep and mysterious. So it is finding 
it.
    Mr. Sablan. Thank you, Mr. Chairman.
    Dr. Fleming. I thank the gentleman, Mr. Farr, for your 
testimony today. A very important issue, and, certainly, we are 
going to be working on this going forward.
    Mr. Farr. OK. Thank you very much, Mr. Chairman. I hope we 
can get a markup and get it to the Floor so that we can get it 
reauthorized. The last time the bill was passed, there wasn't a 
single negative vote in either the Senate or the House, so it 
is a popular issue.
    Dr. Fleming. All right. Very good. Thank you, sir.
    Our next panel is another Member, Mr. Kingston. He has not 
arrived yet, so we will move forward with our opening 
statements, and hopefully we will see Mr. Kingston very soon. I 
will begin with mine.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Our story begins in 1865, when, at the end of 
the Civil War, Ms. Margaret Ann Harris leaves 2,688 acres of 
land to Mr. Robert Delegal, a former slave, and his heirs in 
her final will and testament. For the next 75 years, 75 African 
American families lived on Harris Neck, and they raised their 
families, their crops, and invested their future in this land.
    In 1942, the Federal Government decided that they needed 
this exact land to build an Army airfield, and they used their 
condemnation authority to acquire it. The residents who lived 
on Harris Neck were given 2 weeks to move themselves and all of 
their belongings. They were allegedly told that they could 
reclaim their property at the end of World War II and that they 
would be fairly compensated.
    Sadly, it appears that neither of these promises were kept. 
It is now nearly 70 years since their property was condemned, 
and, since that time, the 2,688 acres have been used as a 
failed county airport for drug smuggling, illegal cattle 
grazing, gambling, and as a unit of the National Wildlife 
Refuge System.
    While we are not going to solve this controversy today, I 
am holding this hearing at the request of Congressman Jack 
Kingston, who represents this area and who believes, as I do, 
that the descendants of those who owned the property in 1942 
should have this opportunity to tell their story before the 
House Natural Resources Committee.
    Let me close by asking unanimous consent to submit for the 
record the last will and testament of Margaret Ann Harris; a 
copy of the United States Court of Appeals case in 1982; the 
1985 report of the United States General Accounting Office; a 
letter from the U.S. Fish and Wildlife Service to a Reverend 
Robert Thorpe; and a resolution unanimously adopted by the 
McIntosh County Board of Commissioners in 2007. The resolution 
concludes with the assertion that, ``Commissioners hereby 
recognize the Harris Neck Land Trust and encourage and support 
the Trust with its efforts to regain these 2,688 acres of 
Harris Neck from the Federal Government.''
    [NOTE: The information submitted for the record by Dr. 
Fleming can be found beginning on page 62. The last will and 
testament of Margaret Ann Harris and copy of the U.S.Court of 
Appeals case have been retained in the Committee's official 
files.]
    Dr. Fleming. I am now pleased to recognize our Ranking 
Member. And before I do recognize him, I want to also recognize 
our good friend, Congressman Jack Kingston from Georgia, whose 
district includes the issue at hand.
    And we thank you, sir, for joining us this morning. And we 
will give you an opportunity to testify in just a moment.
    So, with that, I am now pleased to recognize our Ranking 
Member from Northern Marianas, Congressman Sablan, for any 
statement he wishes to make.
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning, today, we are going to have both an oversight and 
legislative hearing. The first panel of witnesses will address a 
painful experience in our nation's history and I will reserve my 
comments on the legislative proposals until we conclude this portion of 
the hearing.
    Our story begins in 1865 when at the end of the Civil War, Ms. 
Margret Ann Harris leaves 2,688 acres of land to Mr. Robert Delegal, a 
former slave, and his heirs in her Final Will and Testament.
    For the next 75 years, 75 African-American families lived on Harris 
Neck and they raised their families, their crops and invested their 
future in this land. In 1942, the federal government decided that they 
needed this exact land to build an Army Airfield and they use their 
condemnation authority to acquire it.
    The residents who lived on Harris Neck were given two weeks to move 
themselves and all of their belongings. They were allegedly told that 
they could reclaim their property at the end of World War II and that 
they would be fairly compensated. Sadly, it appears that neither of 
these promises were ever kept.
    It is now nearly 70 years since their property was condemned and 
since that time the 2,688 acres have been used as a failed county 
airport, for drug smuggling, illegal cattle grazing, gambling and as a 
unit of the National Wildlife Refuge System.
    While we are not going to solve this controversy today, I am 
holding this hearing at the request of Congressman Jack Kingston who 
represents this area and who believes, as I do, that the descendants of 
those who owned this property in 1942 should have this opportunity to 
tell their story before the House Natural Resources Committee.
    Let me close by asking unanimous consent to submit for the hearing 
Record, the Last Will and Testament of Margret Ann Harris, a copy of 
the United States Court of Appeals case in 1982, the 1985 Report of the 
United States General Accounting Office, a letter from the U. S. Fish 
and Wildlife Service to Reverend Robert Thorpe and a Resolution 
unanimously adopted by the McIntosh County Board of Commissioners in 
2007. The Resolution concludes with the assertion that: ``Commissioners 
hereby recognizes the Harris Neck Land Trust and encourages and 
supports the Trust with its efforts to regain these 2,688 acres of 
Harris Neck from the Federal Government''.
    I now recognize the Ranking Minority Member for any statement he 
would like to make at this time.
                                 ______
                                 

 STATEMENT OF THE HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS 
               FROM THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Chairman Fleming. And I 
look forward to hearing the testimony about the issues and 
views with us today.
    Today, we will hear testimony from witnesses regarding the 
history of Harris Neck National Wildlife Refuge. I look forward 
to learning more about this important issue.
    We will also examine Senate Bill 363, introduced by Senator 
Wicker. This bill will simply authorize a land exchange between 
the City of Pascagoula and NOAA, which has been agreed upon by 
both parties.
    Finally, I am very pleased that my colleague and good 
friend, the distinguished gentleman representing California's 
17th Congressional District, Congressman Farr, testified 
earlier on his bill, on H.R. 1171, the Marine Debris Act 
Reauthorization Amendments of 2011. As someone who is 
passionate about the well-being of our oceans, I find marine 
debris to be a particularly concerning issue.
    Marine debris and any discarded or abandoned manmade 
objects that enter the coastal or marine environment of the 
Great Lakes, the majority of this trash, from plastic bottles 
to derelict fishing gear, breaks down very slowly and can float 
thousands of miles on ocean currents. We now know that trash is 
not only accumulating on the world's beaches but is gathering 
in the most remote parts of the ocean. This litter is more than 
an eyesore. Marine debris poses a serious threat to fishery 
resources, wildlife and habitat, as well as human health and 
navigational safety.
    The spiraling whirlpool of trash between California and 
Hawaii, which is popularly known as the ``Pacific Garbage 
Patch,'' is one of several areas of highly concentrated marine 
debris in the Pacific Ocean. By skimming the water with fine 
nets, scientists have discovered that in some parts of this 
vast Pacific garbage patch the plastic outweighs tiny marine 
creatures six to one.
    In March of this year, the tsunami in Japan created 
scattered patches of marine debris in the Pacific Ocean that 
are visible by satellite. This debris has the potential to 
litter our shores, from the islands to the West Coast, over the 
next 5 years. Last year, in just 1 day, over 1,000 volunteers 
cleared more than 6,000 pounds of marine debris from the 
beaches on the Commonwealth of the Northern Mariana Islands, my 
district. And in a similar effort this year, almost 5,000 
pounds were collected.
    The national and international efforts on the part of NOAA, 
working with the United States Coast Guard and other agencies, 
have been highly successful in identifying, removing, and 
preventing marine debris.
    Marine debris is hazardous to humans and wildlife, clogs 
our beautiful oceans and beaches, and has devastating economic 
impacts. It is for these reasons and many, many more that I 
strongly support H.R. 1171. And I look forward to hearing from 
our witnesses today.
    And thank you, Mr. Chairman.
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Chairman Fleming. I look forward to hearing the 
testimony about the issues and bills before us today.
    Today, we will hear testimony from witnesses regarding the history 
of Harris Neck National Wildlife Refuge. I look forward to learning 
more about this important issue.
    We will also examine S.363, introduced by Senator Wicker. This bill 
will simply authorize a land exchange between the City of Pascagoula 
[PASS-KA-GOO-LA] and the National Oceanic and Atmospheric 
Administration, NOAA [No-ah], which has been agreed upon by both 
parties.
    Finally, I want to also welcome my colleague and good friend, the 
distinguished gentleman representing California's 17th Congressional 
District, Congressman Farr, who will testify on his bill, H.R. 1171, 
the Marine Debris Act Reauthorization Amendments of 2011. As someone 
who is passionate about the well-being of our oceans, I find marine 
debris to be a particularly concerning issue.
    Marine debris is any discarded or abandoned man-made object that 
enters the coastal or marine environment or the Great Lakes. The 
majority of this trash, from plastic bottles to derelict fishing gear, 
breaks down very slowly and can float thousands of miles on ocean 
currents. We now know that trash is not only accumulating on the 
world's beaches, but is also gathering in the most remote parts of the 
ocean. This litter is more than an eyesore--marine debris poses a 
serious threat to fishery resources, wildlife, and habitat, as well as 
human health and navigational safety.
    The spiraling whirlpool of trash between California and Hawaii, 
which is popularly known as the Pacific Garbage Patch, is one of 
several areas of highly-concentrated marine debris in the Pacific 
Ocean. By skimming the water with fine nets, scientists have discovered 
that in some parts of this vast Pacific Garbage Patch, the plastic 
outweighs tiny marine creatures six to one. In March of this year, the 
tsunami in Japan created scattered patches of marine debris in the 
Pacific Ocean that are visible by satellite. This debris has the 
potential to litter our shores, from the islands to the West Coast, 
over the next 5 years.
    Last year, in just one day, over one thousand volunteers cleared 
more than 6,000 pounds of marine debris from our beaches on the 
Commonwealth of the Northern Marianas Islands and in a similar effort 
this year, almost 5,000 pounds were collected. The national and 
international efforts on the part of NOAA, working with the United 
States Coast Guard and other agencies, have been highly successful at 
identifying, removing, and preventing marine debris.
    Marine debris is hazardous to humans and wildlife, clogs our 
beautiful oceans and beaches, and has devastating economic impacts. It 
is for these reasons and many more that I strongly support H.R. 1171, 
and I look forward to hearing from our witnesses today.
                                 ______
                                 
    Dr. Fleming. I thank the Ranking Member, Mr. Sablan, for 
his statement.
    Now I would like to recognize Mr. Kingston for his 
statement on this important topic.

   STATEMENT OF THE HON. JACK KINGSTON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Kingston. Thank you, Mr. Chairman and Mr. Ranking 
Member and Committee members and staff. I know we have been 
working closely with you over the last couple of years on this. 
I greatly appreciate your having the hearing. Harry Burroughs 
has been especially helpful to us.
    One of the things that I want to emphasize, this is the 
first hearing that the Harris Neck residents have ever been 
able to have, and yet this is a situation that has been going 
on really for decades. And it is a question to me of, what was 
the original intent of the U.S. Government, was there 
compensation that was fair to the residents, and was the 
original intent followed in terms of reverting the land back to 
the residents of it?
    And you, Mr. Chairman, just outlined the situation, so I 
won't reiterate that. But I will say that, from my involvement 
with it, the parties have been very good. Fish and Wildlife has 
been very responsive in terms of answering questions. We have 
had a meeting or two in my office that I think have been 
productive. There has been a lot of good faith. And we all 
realize that we have somewhat inherited this from people who 
previously sat in our chairs, you might say.
    So today we are going to hear from Winston Relaford, the 
Chairman of the Land Trust; Reverend Thorpe, a former Board 
Chairman and Harris Neck Elder; former residents Evelyn Greer 
and Wilson Moran, also on the Board; and Project Coordinator 
David Kelly. And I have met with them. We are also going to 
hear from Dot Bambach from Friends of the Savannah Coastal 
Wildlife Refuge and Cynthia Dohner from Fish and Wildlife 
Service.
    And what I would rather do than--I would rather yield the 
balance of my time to the panel and give them an opportunity to 
be heard. So thank you very much, again, for having this first 
hearing on this. I think this is going to be very productive 
for all of us.
    Dr. Fleming. Very good. Well, I thank the gentleman, and I 
thank you for requesting this hearing.
    And I will now invite the panel to come forward, and we 
will begin hearing from the witnesses.
    OK. The panel members today, which Mr. Kingston has already 
introduced, but I will go back through and ask them to come 
forward. I welcome all the witnesses to the panel. We 
appreciate your time today.
    We will hear testimony from the Region 4 Director of the 
U.S. Fish and Wildlife Service, Ms. Cindy Dohner; Ms. Dot 
Bambach, representing the Friends of the Savannah Coastal 
Wildlife Refuges; and Mr. David Kelly, Project Coordinator, 
Harris Neck Land Trust; Mr. Wilson Moran, who is a direct 
descendant of Mr. Robert Delegal; Reverend Robert Thorpe, 
Pastor, Peaceful Zion Church; Ms. Evelyn Greer and Mr. Winston 
Relaford, who are both Board Members of the Harris Neck Land 
Trust.
    Thank you, panel, for joining us today. Hopefully everyone 
is sitting in the seat with their name in front of them. 
Sometimes that is a challenge.
    Ms. Dohner, you are now recognized for 5 minutes. And you 
may have heard me explain the light scenario. You have probably 
testified before.
    And I will go through that real quickly for panel members 
before I again recognize Ms. Dohner.
    When you testify, the green light says you are within the 
first 4 minutes of your testimony. The yellow light says you 
are in the last minute of your testimony. When it turns red, if 
you haven't finished, we would ask that you go ahead and wrap 
up immediately.
    So, with that, I will recognize Ms. Dohner.

STATEMENT OF CYNTHIA DOHNER, SOUTHEAST REGIONAL DIRECTOR, U.S. 
                   FISH AND WILDLIFE SERVICE

    Ms. Dohner. Good morning, Chairman Fleming and members of 
the Subcommittee. I am Cynthia Dohner, the Southeast Regional 
Director for the U.S. Fish and Wildlife Service within the 
Department of the Interior. As the Regional Director, I oversee 
and coordinate the services and programs across the Southeast 
in 10 States and Puerto Rico and the Virgin Islands. Thank you 
for the opportunity to appear before you today to talk about 
the history of Harris Neck National Wildlife Refuge and its 
ecological value and importance to the American public.
    Jurisdiction over these lands was transferred to the 
Service in 1962. What we know about the condemnation of these 
lands by the Department of Defense during World War II is 
limited to two Federal court cases, a General Accounting Office 
report, and other information provided by the Harris Neck Land 
Trust. The Service is not in possession of the original records 
pertaining to DOD's condemnation of these lands.
    In my written statement, the historical background 
indicates that DOD condemned 2,687 acres of land for use as an 
airfield during World War II in the early 1940s. About 20 years 
later, the land was transferred to the Service to be managed as 
a national wildlife refuge. Since then, the Federal court 
rulings and the GAO report found that there was no evidence of 
improper procedure in DOD's condemnation of these lands.
    These lands serve as an important link in the chain of 
refuges along the Atlantic coast that provides migratory birds 
with important areas for resting and feeding as they make their 
journeys north and south. Harris Neck Refuge has a variety of 
habitats, ranging from live oak forest to salt marshes and 
freshwater impoundments. It is home to numerous resident 
species: bobcat, whitetail deer, bald eagles, and more than 342 
species of birds, including an endangered bird.
    The refuge is one of 18 stops along the Georgia Colonial 
Birding Trail and has been designated as an Important Bird Area 
by the National Audubon Society. It is best known for its 
incredible viewing opportunities of the endangered wood stork 
during nesting season. The Woody Pond Colony is the largest 
breeding colony of wood storks, with nearly 500 nesting pairs. 
This is one of the most stable and productive colonies in the 
country and is key to recovering this species.
    The staff station at Harris Neck Refuge has expertise to 
actively manage the refuge and its habitat for the benefit of 
these species. The Service's management of the Refuge ensures 
that visitors--about 90,000 a year--are able to enjoy wildlife-
dependent recreational opportunities on the Refuge, including 
hunting, fishing, wildlife observation, photography, hiking and 
biking trials. There is an auto tour route, and there is an 
environmental education program.
    These ecological and historical values of Harris Neck are 
increasingly important as the population in the Southeast 
region continues to grow. These natural habitats are key to 
sustaining fish and wildlife along the East Coast. It is the 
Service's responsibility and obligation to ensure the 
conservation of fish and wildlife and their habitats for the 
benefit and enjoyment of the public. We also have the 
responsibility to take care of more than a dozen historic 
properties on the Refuge, and consider it an important part of 
our work.
    The Refuge is part of this community, and we strive to be a 
good neighbor and a good partner. As we pursue our mission, we 
have reached out to the community, including the Harris Neck 
Land Trust, to understand their concerns. We recognize the 
historical relationship that members of the Land Trust have to 
these lands. As such, the Refuge ensures the Land Trust members 
are provided access to the Gould Cemetery, which is within the 
Refuge, and some members of the land trust are afforded 
unlimited access to Crabber's Dock.
    The Refuge belongs to the American people. The Service is 
charged by statute under the National Wildlife Refuge 
Administration Act with managing these lands for the benefit 
and enjoyment of the public now and in the future. Under our 
legal mandates, the Service does not have the administrative 
authority to dispose of the Refuge, given its significant 
ecological value.
    I would like to conclude by saying the condemnation of 
private property sometimes presents difficult issues, 
especially in wartime. Some may see these situations and 
decisions as unfair. The Service is not aware of any unfair 
treatment or unlawful activity related to this condemnation.
    We believe this Refuge plays an important role in the 
quality of life for all citizens in the nearby communities. 
Given the current economic climate, the significance and value 
of affordable recreational opportunities where families can 
connect with fish and wildlife in the outdoors as well as 
create memories that will last a lifetime can't be 
overemphasized.
    Thank you again for the opportunity to appear before you 
today. I will be happy to answer any questions.
    [The prepared statement of Ms. Dohner follows:]

       Statement of Cynthia Dohner, Southeast Regional Director, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

    Good morning Chairman Fleming and Members of the Subcommittee. I am 
Cynthia Dohner, Southeast Regional Director for the U.S. Fish and 
Wildlife Service (Service) within the Department of the Interior. As 
Regional Director I oversee and coordinate management and policy for 
the Service's programs across the Southeast, which includes 10 states, 
Puerto Rico and the U.S. Virgin Islands.
    I appreciate the opportunity to appear before you today to testify 
about Harris Neck National Wildlife Refuge in McIntosh County, Georgia, 
and its ownership history. Harris Neck NWR was established in 1962 and 
today includes 2,824 acres of saltwater marsh, grassland, forests, and 
managed wetlands. Because of this great variety in habitat, many 
different species of wildlife, especially birds, are attracted to the 
refuge throughout the year. In the summer, egrets, herons, and the 
endangered wood stork, nest in the swamps, while in the winter, 
concentrations of migratory birds use the refuge. Harris Neck NWR 
serves as an important link in the chain of refuges along the Atlantic 
seaboard.
Early Ownership of Harris Neck Lands
    Since the lands for the Harris Neck National Wildlife Refuge were 
not transferred to the Service from the Federal Aviation Administration 
(FAA) until 1962, the Service is not in possession of the original 
records pertaining to the federal government's acquisition of these 
lands. We do know, however, that two federal court rulings have upheld 
the condemnation of these lands, and a U.S. General Accounting Office 
(GAO) report issued in 1985, opined that just compensation had been 
paid for these lands.
    The historical background we do have on these lands indicates that 
between 1929 and 1932, the Civil Aeronautics Authority (CAA) 
established an emergency airfield at Harris Neck denoted as two 
airstrips on a 1935 U.S. Navy Aviation Chart. Based upon this existing 
airstrip, in 1943, the United States through the Department of Defense 
condemned 2,687 acres of Harris Neck land for use as a war-time 
airfield during World War II. At the conclusion of the war, the federal 
government conveyed the land to McIntosh County, Georgia, in June 1948 
for use as a county airport under the Surplus Property Act of 1944. The 
Service understands the county held the land until February 1961, when 
it reverted to federal ownership under the FAA because the county was 
not operating it in accordance with the 1948 agreement. In September 
1961, the FAA declared the property surplus and in May 1962, under the 
Federal Property and Administrative Services Act of 1949, transferred 
it to the Service to be managed as a unit of the National Wildlife 
Refuge System.
    Based on the GAO report, the Service understands that once 
Declarations of Taking were filed, compensation was set aside in 
advance of a final judgment; and compensation was ultimately provided 
to landowners in 1948 when a U.S. District Court approved the judgments 
for condemnation. In addition, the Service is not aware of any 
assurances then or since that these lands could be restored to the 
former owners at the conclusion of World War II. Federal court rulings 
over time have upheld the action of the Department of Defense and the 
compensation paid for those lands. The GAO's report concluded the same 
in its report based on available records.
    As the Service continues to pursue its wildlife conservation 
mission at Harris Neck, we also work with members of the Harris Neck 
Land Trust to ensure access to Crabber's Dock and a boat ramp built by 
the Service in 1985 and permitted to the Barbour River Watermen's 
Association to ensure access to a valuable fishery. In addition, the 
Service has held meetings with representatives of the Land Trust as 
recently as 2010 to pursue an ongoing dialogue and learn more about the 
early history of these lands. So far, those efforts have not led to the 
discovery of any new documentation that would shed additional light on 
the history of the Harris Neck lands relative to this action.
The Refuge and its Benefits
    Harris Neck National Wildlife Refuge is an important component of 
the National Wildlife Refuge System. It supports a variety of habitats 
ranging from live oak forests to salt marshes and freshwater 
impoundments. The refuge is home to numerous species, including 
bobcats, white-tailed deer, bald eagles, and endangered gopher 
tortoises. In addition, more than 342 species of birds utilize the 
refuge, including roughly 83 species of nesting birds.
    The mature maritime forest, best recognized by the stately live 
oaks draped with Spanish moss, is important to a number of migratory 
birds including the painted bunting--one of the highest priority 
songbirds in the southeastern United States for conservation. This 
species is experiencing precipitous population declines primarily from 
the loss of these forests and the associated shrub habitat that 
represents the younger, developing stages of the forest. The painted 
bunting is the signature songbird of Harris Neck NWR with the refuge 
hosting one of the greatest densities of nesting pairs on the mainland 
in the southeast. In addition, the painted buntings' brilliant and 
colorful plumage is one of the primary attractions for the vast 
majority of bird watchers that come to the refuge.
    Harris Neck NWR is an important stop along the coast that form the 
Colonial Birding Trail and it has been designated as an Important 
Birding Area by the Audubon Society. The refuge is best known for its 
incredible viewing opportunities of the federally endangered wood stork 
colony during nesting season. The Woody Pond stork colony is the 
largest breeding colony in Georgia with nearly 500 nesting pairs making 
it one of the most stable and productive colonies in the country. This 
site plays a key role in moving the wood stork toward full recovery.
    The refuge's expanse of coastal wetlands and upland forests also 
plays an important role in the cooperative planning and habitat 
management efforts of the South Atlantic Migratory Bird Initiative. 
This initiative, developed as part of the Atlantic Coast Joint Venture, 
is a collaboration of federal, state, and non-governmental 
organizations to manage and protect habitats for high priority 
migratory birds within the coastal region of the southeast.
    The Service is responsible for protecting historic properties on 
lands it owns or manages under laws such as the National Historic 
Preservation Act and the Archaeological Resources Protection Act. 
Several historic properties, including the Gullah-Geechee community of 
Harris Neck, have been identified through archaeological investigations 
on the refuge since the 1980s.
    With a four-person staff and a budget of roughly $449,000, Harris 
Neck NWR provides public use opportunities, including two annual deer 
hunts, fishing, wildlife observation, photography, more than five miles 
of hiking and biking trails, and interpretation/environmental education 
programs, to roughly 90,000 visitors this year. Two public boat ramps 
on the refuge provide access for saltwater anglers. Additionally, the 
public can enjoy wildlife viewing along a four-mile auto tour route 
known as Wildlife Drive. In 2010, McIntosh County received $48,309 
through the Service's refuge revenue sharing program and a similar 
amount is anticipated for 2011.
Conclusion
    The ecological and historical values of Harris Neck NWR are 
numerous and increasingly important as the population of the coastal 
region of the southeastern U.S. continues to grow, especially along the 
coast of Georgia. The refuge is vital to ensuring the conservation of 
fish and wildlife resources along the Georgia coast for future 
generations to enjoy. In addition, these refuge lands serve an 
important conservation objective, particularly with regard to the 
endangered wood stork and other high priority migratory birds.
    Harris Neck NWR is an important link in the network of National 
Wildlife Refuges along the east coast of the United States providing 
protected, high quality habitat for hundreds of species of migratory 
birds. Moreover, Harris Neck NWR is easily accessible by the public to 
enjoy the wildlife this refuge supports. It is the Service's 
responsibility and obligation to ensure the protection of these species 
and the habitats in which they reside.
    The condemnation of private property sometimes presents difficult 
issues, especially in time of war. Some may see these situations and 
decisions as unfair. However, it does not mean that people were not 
fairly compensated, or that laws and regulations were not followed 
appropriately. The Fish and Wildlife Service is unaware of any unfair 
treatment or unlawful activity incident to the condemnation of this 
property.
    It is important to understand that this issue has been reviewed 
over the years by both the U.S. District Court in Georgia and the U.S. 
Court of Appeals Eleventh Circuit, which both found that just 
compensation had been awarded in the condemnation of this property. 
Also, the GAO confirmed in its report that the actions of the federal 
government had been legal and appropriate under rules established for 
condemnation of property, fair compensation, and subsequent land 
conveyances. Moving forward, the Service is open to further discussions 
if any new information becomes available.
    Mr. Chairman, Members of the Subcommittee, thank you again for the 
opportunity to appear before you today to discuss the history of Harris 
Neck National Wildlife Refuge. I'll be happy to answer any questions 
you may have as best I can.
                                 ______
                                 
    Dr. Fleming. I thank you, Ms. Dohner.
    Before we go to our next witness, I want to ask unanimous 
consent that the gentleman from Georgia, Mr. Kingston, who just 
testified, be allowed to sit with the Subcommittee and 
participate in the hearing.
    Hearing no objection, so ordered.
    Ms. Bambach, you are up next for 5 minutes, and we are 
ready to hear from you.

                 STATEMENT OF DOROTHY BAMBACH, 
        FRIENDS OF THE SAVANNAH COASTAL WILDLIFE REFUGES

    Ms. Bambach. Good morning. My name is Dorothy Bambach. I 
represent the Friends of the Savannah Coastal Wildlife Refuges. 
I also have the support of Georgia Ornithological Society, 
National Audubon, and the National Wildlife Refuge Association. 
Thank you very much for inviting me today.
    Our Friends group is a nonprofit organization that supports 
and advocates for our seven local national wildlife refuges, 
including Harris Neck. We also promote public understanding of 
the need to protect and preserve wildlife and wildlife habitat. 
Our 281 dues-paying members come from all walks of life--
professionals, blue-collar workers, sportsmen, retirees, and 
others. The one thing we all have in common is that we care 
passionately about our local refuges and are willing to invest 
our time, our money, and our sweat to maintain and protect 
them.
    The 85,000-plus annual visitors to Harris Neck are also a 
diverse group. As Cindy has already mentioned, they are hunters 
and fishermen, crabbers, shrimpers, cyclists, paddlers, Scout 
troops, birders, garden clubs, butterfly clubs, photographers, 
nature watchers, wildlife watchers, hikers, joggers, and school 
groups. They come from all over the United States and several 
foreign countries, and they bring much-needed revenue to local 
businesses with each one of their visits.
    Here are a few direct quotes that I received from some of 
the regular visitors:
    ``Try not to let your jaw hit the ground at the sight you 
will behold at Woody Pond, perhaps the most amazing wader 
rookery in the entire State.''
    ``I bike and fish at Harris Neck at least once a week 
because the peace, quiet, and wildlife are just unbelievable.''
    ``Harris Neck is a source of beauty, family recreation, and 
outdoor education for us, and has been for many years.''
    And, finally, ``A highlight of any visit to Harris Neck is 
meeting people from all over who have stopped in with their 
cameras, tripods, and binoculars.''
    Personally, I have never met anyone who was unenthusiastic 
about their experience at the Refuge.
    And I know Harris Neck well because I am a frequent 
volunteer there. In the past 11 years, I have accrued more than 
3,300 volunteer hours, most of them at Harris Neck, and I have 
driven over 30,000 miles in service to the Refuge. My 
experience as a volunteer has allowed me to see firsthand what 
a valuable and enduring asset Harris Neck is to the local 
community and the Nation.
    And I empathize greatly with the families of the Harris 
Neck Land Trust for the sacrifices they made during this 
country's World War II efforts. But I strongly support the 
Refuge, and I do not want to see it diminished by converting 
any part of it to residential or commercial use.
    Although the Refuge System was not involved in the original 
1943 acquisition of the property, the system has proven to be 
an excellent steward of the land for the past 30 years. The 
Refuge has identified and protects vestiges of a number of 
different communities that occupied the land over centuries, 
not just the Gullah-Geechee families of the Harris Neck Land 
Trust, but also Native American settlements and burial grounds, 
antebellum plantations, a mansion from the pre-war estate era, 
and, of course, the World War II airfield.
    I should notice that the plantations that are within the 
Refuge boundary historically were the Peru, Gould, and King 
Plantations. The plantation of Margaret Ann Harris was south 
and west of the Refuge. And that will--while she did will her 
property to Mr. Delegal, none of those properties are within 
the Refuge boundary.
    Continued Federal ownership and control will assure that 
descendants of all traditions--Native American, local families, 
and war veterans alike--know that they and future generations 
will be able to experience the land and environment on which 
their ancestors once lived. Losing Harris Neck to development 
would be an economic, cultural, and environmental tragedy. We 
ask the Subcommittee to ensure that the Refuge remains intact, 
undisturbed, and under the ownership and control of U.S. Fish 
and Wildlife.
    Thank you for allowing me to testify today. I invite each 
of you to come for a visit to Harris Neck. I will ensure you a 
private tour of the Refuge, and I guarantee you will be 
informed and absolutely amazed by what you see.
    Thank you.
    [The prepared statement of Ms. Bambach follows:]

           Statement of Dorothy Bambach, Conservation Chair, 
         Friends of the Savannah Coastal Wildlife Refuges, Inc.

    My name is Dorothy Bambach. I represent the Friends of the Savannah 
Coastal Wildlife Refuges, Inc. (``FSCWR'') and also have the support of 
Georgia Ornithological Society, National Audubon and the National 
Wildlife Refuge Association. I appreciate this opportunity to submit 
testimony to the House Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs.
    FSCWR is a non-profit organization whose mission is to support and 
advocate for the seven refuges within the Savannah Coastal Refuge 
Complex (which includes Harris Neck NWR) and to promote public 
understanding of the need to protect and preserve wildlife and wildlife 
habitat. We fund special projects, provide volunteer labor, and conduct 
public outreach programs. We are proud to boast 281 dues-paying members 
after only 4 years of existence. Our membership is diverse and includes 
educators, hunters and fishermen, medical and business professionals, 
blue-collar workers, scientists, and retirees, among others. The one 
thing that all of us have in common is that we care about our local 
national wildlife refuges with sufficient passion to be willing to 
invest our time, money and sweat to maintain and protect them.
    Visitors come to Harris Neck with a wide variety of interests. The 
refuge is used by hunters and fishers, crabbers and shrimpers, 
cyclists, paddlers, scout troops, birders, butterfly and garden clubs, 
photographers, nature- and wildlife-watchers, hikers and joggers, and 
school groups.
        <bullet>  The refuge's man-made Woody Pond is a particular 
        favorite with birders, photographers and wildlife watchers; 
        wingsoverga.com comments: ``try not to let your jaw hit the 
        ground at the sight you will behold. . .perhaps the most 
        amazing wader rookery in the state.''
        <bullet>  Local resident Janet Ritter Yeager, told me, ``We 
        decided to move to the Harris Neck area because of the 
        opportunity to hike and ride bikes in the refuge's unique 
        natural environment.''
        <bullet>  Fisherman Jim McMahon says he visits the Harris Neck 
        fishing docks at least once a week, because ``the peace, quiet 
        and wildlife are just unbelievable.''
        <bullet>  ``The refuge has been a source of beauty, family 
        recreation, and outdoor education for us over the years.''--
        Jessica Aldridge, St. Marys, Georgia
        <bullet>  ``A highlight of any visit to Harris Neck is meeting 
        people from all over the East Coast who have stopped in with 
        their cameras, tripods and binoculars.''--Hunter Hurst, 
        Shellman Bluff, Georgia
    Harris Neck NWR is located in McIntosh County on the Georgia coast, 
about 20 miles south of the city of Savannah. A brief summary of how 
Harris Neck came to be a refuge is in order. Most of the land on which 
the Harris Neck refuge is situated was purchased by the military early 
in World War II for use as a pilot training facility by the Army Air 
Corps. I can understand why this particular location might have been 
attractive for an airbase. The site stood on a point of land that was 
surrounded on three sides by waterways and extensive, low-lying 
saltmarsh, thus giving unobstructed approach and take-off routes for 
pilot trainees. The property also contained a Civil Aeronautics 
Authority emergency airfield and a deep-water dock, which might have 
been considered helpful to transport men and supplies during 
construction of the base. And there was a 28-room mansion (the old 
Lorillard estate) on the property that could provide immediate shelter.
    After the war ended, when the military decommissioned the base it 
was required, based on my understanding of federal surplus property 
disposal rules, to seek a viable public use for the site. The property 
was therefore conveyed in 1948 to McIntosh County for a municipal 
airport facility. When the county failed to fulfill its agreement to 
operate the airport, the property was taken back into federal custody 
in 1961 and once again designated as surplus property.
    Federal rules for property disposal specify that surplus land be 
offered first for use by other federal executive agencies. The 
Department of the Interior expressed interest in acquiring the land as 
a wildlife refuge and the property was transferred for that purpose in 
1962. It should also be noted that GSA Regulation Sec. 102-75.25 
requires that a federal agency ``fulfill its needs for real property so 
far as practicable by utilization of real property determined to be 
excess by other agencies. . .before it purchases non-Federal real 
property.'' In other words, the refuge system should not purchase 
nearby privately held land for use as a refuge as long as surplus 
federal land is both available and suitable in the same general area, 
which it was in the case of Harris Neck.
    Subsequent to 1962, The Nature Conservancy purchased and 
transferred several additional parcels of land to the refuge system, 
thus expanding the Harris Neck footprint to what it is today. Of 
course, the area looks very different today from its pre-war 
appearance: several docks have been added; six shallow ponds were 
constructed for use by waterfowl and wading birds; long-leaf pine and 
bald cypress have been planted; and areas once cleared have been 
allowed to re-forest.
    I know Harris Neck well because I am a frequent volunteer there. 
After retiring from our work careers, my husband and I moved to 
Savannah, Georgia in 1999. I believe that everyone, especially those of 
us who have been fortunate in life, have an obligation to give back to 
their community in meaningful ways. That philosophy, combined with a 
lifelong interest in nature, led me to offer my services as a volunteer 
to our refuge complex. In the past eleven years I have accrued in 
excess of 3300 volunteer hours, most of them at Harris Neck, and have 
put over 30,000 miles on my car in service to the refuge. I have pruned 
shrubs, removed invasive plants, given presentations about the refuges 
to various groups, organized and conducted bird surveys, monitored 
nesting bird colonies, served as a docent in the visitor center, led 
field trips and tours, and interpreted the refuge for visiting groups 
of children and adults.
    My experience as a volunteer has allowed me to see first-hand what 
a valuable and enduring asset Harris Neck is for the local community 
and the nation. While I empathize with the families of the Harris Neck 
Land Trust for the sacrifices they made during this country's World War 
II efforts, I strongly support the refuge and do not wish to see it 
diminished by converting any part of it to residential or commercial 
use.
    Let me explain why Harris Neck NWR is a valuable asset worth 
retaining under the ownership and control of the federal refuge system.
        <bullet>  Harris Neck is a superb oasis for wildlife and 
        natural habitat within a geographic area that has undergone a 
        very high rate of development in the past decade. It offers a 
        great variety of habitat types for a relatively small refuge: 
        weedy fields, shrub/scrub, shallow freshwater ponds, mudflats, 
        saltmarsh, bottomland woods, pinewoods, and maritime forest. As 
        a result, it boasts an impressive list of mammals, birds, 
        reptiles and insects that use the refuge, including such 
        charismatic species as bobcat, white-tailed deer, bald eagle, 
        wood stork, painted bunting, gopher tortoise and swallowtail 
        butterfly. The refuge has been designated as an Important Bird 
        Area by National Audubon and is one of only 18 sites on 
        Georgia's Colonial Coast Birding Trail.
        <bullet>  The refuge has contributed a great deal of data and 
        insights to the scientific community through the staff's work 
        with nesting wood storks, painted buntings and loggerhead sea 
        turtles. For example, Harris Neck pioneered the use of 
        artificial platforms and water level management to provide 
        nesting habitat for wood storks. The refuge's wood stork colony 
        is now the largest and most productive in Georgia and the most 
        consistently and intensively monitored in the nation. The data 
        gathered (entirely by volunteers and interns) from the wood 
        stork colony is used to document the recovery of the species, 
        which was once critically endangered and now appears to be on a 
        stable path toward de-listing.
        <bullet>  Refuges are economic engines in local communities; 
        when people visit Harris Neck, they buy gas, stay at local 
        hotels, eat at local restaurants and frequent area tourism 
        facilities. For every $1 appropriated by Congress to run our 
        national refuges, they return on average $4 in economic 
        activity to the local economy. The numbers are probably even 
        more impressive in coastal Georgia refuges; for example, the 
        not-too-distant Okefenokee NWR has been found to generate over 
        $34 for every $1 appropriated.
        <bullet>  Although the U.S. Fish & Wildlife Service was not 
        involved in the original condemnation of the land in 1943, it 
        has demonstrated excellent stewardship of the property since 
        taking possession in 1962. A staff of only four employees 
        delivers a big bang for each tax buck by managing three 
        national wildlife refuges comprising nearly 14,000 acres in 
        three discrete locations: Harris Neck, Blackbeard Island, and 
        Wolf Island. With the help of volunteers, staff maintain roads 
        and trails, control invasive species, manage water levels, 
        provide interpretation to the visiting public, conduct wildlife 
        surveys and studies, operate bird banding programs, organize 
        hunts, and research and document historical and archaeological 
        artifacts.
        <bullet>  Harris Neck hosts between 85,000 and 90,000 visitors 
        per year, demonstrating sustained usage by both local residents 
        and a large number of out-of-state visitors (of the visitors 
        who sign in at the refuge office, 60% are from out-of-state or 
        a foreign country). The web site Listasaur.com, which publishes 
        ``top five'' lists on a variety of topics, mentions Harris Neck 
        as ``a location worth stopping to enjoy for a few days.''
        <bullet>  The refuge is noted for its ease of access. It is 
        located only 7 miles from Interstate I-95 and has a paved 4-
        mile Wildlife Drive that winds through the refuge. Interpretive 
        panels have been installed at key locations along the drive. 
        Woody Pond and the remnants of the airfield runways are 
        wheelchair accessible. And short walks off the main drive lead 
        to other scenic and wildlife-rich observation areas.
        <bullet>  Harris Neck protects a number of historic and 
        archaeological sites and traditions, including Native American 
        villages and burial grounds, remnants of the Peru Plantation, 
        vestiges of the Lorillard estate and the Gullah-Geechee culture 
        and, of course, the World War II airfield. Descendants from all 
        of those eras--Native Americans, local families, and military 
        veterans--can be assured that future generations will be able 
        to experience and gain understanding of the land and natural 
        environment on which their ancestors once lived.
    My greatest concern is that the introduction of private residences 
to Harris Neck will damage or destroy what has been accomplished there 
over the past 50 years. For example, the refuge is closed entirely at 
night to avoid disturbance to the many nocturnal species that flourish 
there. During spring and summer, the public is kept at a safe distance 
from the nesting colony so that birds are not startled into abandoning 
their nests. Pets are prohibited, as are livestock. Freshwater 
resources, which are limited, are carefully marshaled to where they are 
most needed. Wastewater generation is kept to a minimum. Trash and 
litter are removed daily. And prescribed fire is used every few years 
to maintain desirable habitats. Private residential use is completely 
incompatible with all of these protections.
    In closing, I'd like to emphasize that losing Harris Neck NWR to 
development would be an economic, cultural and environmental tragedy. 
It would also establish a troubling precedent regarding the sanctity of 
federal lands held in trust for the millions of citizens who use and 
enjoy them. We ask this subcommittee to ensure that this trust is not 
violated and that Harris Neck remain intact, undisturbed, and under its 
current ownership and control by the U.S. Fish & Wildlife Service.
    Thank you for allowing me to testify today. I invite each of you to 
come for a visit to Harris Neck to experience first-hand the rich 
natural environment that it offers. You will be most welcome and amazed 
by what you see.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Bambach. And perfect timing on 
the ending of your statement there. You get a prize for the day 
for your accuracy and preciseness.
    I will remind panel members, for those whose statements may 
go past the 5 minutes, that your written statement will be 
printed in the record. So if your statement is more than 5 
minutes, please summarize or somehow abbreviate your statement.
    Next, we have Mr. Kelly. Sir, you are recognized now for 5 
minutes.

 STATEMENT OF DAVID M. KELLY, PROJECT COORDINATOR, HARRIS NECK 
                           LAND TRUST

    Mr. Kelly. Chairman, I think your last comment was directed 
at my testimony.
    Thank you all for the opportunity of being before you 
today. We also want to thank Mr. Kingston very much for his 
efforts and those of his staff, starting in our first meeting 
in late 2005.
    I am sure we have all heard the expression, ``Speak truth 
to power.'' We from Harris Neck wish to speak truth today to 
all the misinformation, misconception, rumor, inaccurate and 
disingenuous statements that have been made and continue being 
made about the Trust, our plans, and this movement for justice. 
We respectfully come before you today to help set the record 
straight.
    We were asked to address five issues, at least, in your 
letter of invitation, and I will try to get to at least four of 
them.
    The taking of Harris Neck in 1942 occurred because of a 
conspiracy among McIntosh County officials, who led 
representatives of the Federal Government directly to Harris 
Neck, right past more than 3,500 acres of virtually uninhabited 
land. This other available property had been owned by E.M. 
Thorpe, who had acquired much of his property in Harris Neck by 
underhanded and unethical practices and by 1942 was the largest 
land owner in Harris Neck, though he did not live there, white 
or black.
    The original taking via eminent domain was highly illegal, 
with the people's Fifth Amendment rights to due process being 
violated in a number of ways through its hurried and carelessly 
executed implementation of eminent domain. A list of these 
violations has been provided by our attorney, who unfortunately 
can't be here because of the short notice, but you have that.
    Number two, the key word in the law regarding compensation 
is that it be ``just.'' The taking of Harris Neck was not just, 
not by a long measure, because, first, not everyone was paid; 
people still have their deeds.
    Second, white families who owned property but did not live 
on Harris Neck and had no improvements to their property--with 
the exception of Lilly Livingston's house, and she had died 
without children before the war--were paid 40 percent more than 
all the African American families, who, over the decades since 
the end of the war, the Civil War, had created a thriving 
community with houses, barns, outbuildings, seafood processing 
plants, general stores, churches, and more.
    Third, not a single African American family was paid for 
anything but their property. There were no payments for any 
improvements, the second most important word in eminent domain 
takings.
    Fourth, payments from the Federal Government did not go 
directly to the African American families and not in time, as 
required by statute. They went through E.M. Thorpe, who may or 
may not have distributed all moneys correctly or fairly. He was 
no friend of the community.
    Number three, regarding the promise made to return the 
property after World War II, I would like to cite the 1934 
decision of Olson v. The United States. In this case, it was 
rightly stated that the owner of condemned property should be 
placed, quote, ``in at least as good a position as if his 
property had not been taken,'' unquote. The community was 
destroyed. An entire way of life was destroyed. People died, 
literally, heartbroken, months later. The people were greatly 
harmed and left in a much worse off position than they were 
before.
    It was the government's responsibility by law, contrary to 
what has already been said, after the law to contact members of 
the former Harris Neck community, whether or not there was a 
promise to return the land--which, all the living elders and 
others, including the infamous Sheriff Poppell, who you have a 
letter from in 1975, will attest to the fact that there was, 
indeed, such a promise made.
    Many families from Harris Neck were then living within two 
miles of their homeland. They stayed close by because of this 
promise. However, after the war, the government did not talk 
with the original owners, did not contact them, and the land 
went to the county. Then again in 1961, when the Department of 
the Interior took title, in both of these instances the people 
of Harris Neck knew absolutely nothing about official 
proceedings and conversations until the deals were well done.
    It does not matter, also, how Fish and Wildlife came to 
control Harris Neck. What matters is that the original taking 
was illegal, and, therefore, each transfer of title since, 
according to our attorney, is invalid.
    Number four, to speak briefly about the lawsuit that was 
filed on behalf of the people of Harris Neck and the decision 
rendered by Judge Edenfield in 1980, both are irrelevant today 
since there never was any legal remedy to Harris Neck. Justice, 
equity lies only with Congress. And as Congress showed just a 
few years ago during President Bush's Administration when it 
legislated the return of more than 15,000 acres to the Colorado 
River Indian Tribes--one of our partners, by the way--taken 
long before Harris Neck, there is no statute of limitations on 
justice.
    Nothing much happened from----
    Dr. Fleming. Mr. Kelly?
    Mr. Kelly. Yes?
    Dr. Fleming. Yeah, you are well past your time. I 
apologize, sir.
    Mr. Kelly. All right. Thank you.
    Dr. Fleming. And, again, this will be entered in the record 
in its entirety. We want to be sure and hear from all of our 
witnesses today.
    Mr. Kelly. Thank you, Chairman.
    [The prepared statement of Mr. Kelly follows:]

  Statement of David M. Kelly, Project Coordinator, Harris Neck Land 
                                 Trust

    Honorable members of this subcommittee and others who may be in 
attendance at this hearing, we thank you for your invitation to testify 
before you on December 15, 2011. We would also like to thank our 
Representative, Congressman Jack Kingston, for all the support and 
advice he has provided us during the six years of the Harris Neck 
Justice Movement.
    I will speak to the following issues that we were asked to address 
in your December 7, 2011 letter of invitation.
        1.  A brief history of how the Federal government obtained 
        Harris Neck.
        2.  How were the owners compensated?
        3.  Whether assurances were given that the community could 
        reclaim the property.
        4.  What steps have been taken by the Federal government and 
        community to address this issue during the past 70 years?
        5.  Has the Federal government offered to compensate anyone 
        represented by the Harris Neck Land Trust?
    I am sure we have all heard the expression ``Speak truth to 
power''. Well, we from Harris Neck, wish to speak truth to 
misinformation, misconception, inaccurate statements, rumor, and 
outright lies that have been, and continue being, spread about the 
Harris Neck Land Trust and our plans for a new Harris Neck community. 
We, respectfully, come before this subcommittee to set the record 
straight about Harris Neck. In that regard I will address five issues 
listed in your December 7th letter, one by one, and make some 
additional relevant comments.
    1. The history of the taking of Harris Neck: The taking of Harris 
Neck--located in northeast McIntosh County, on the coast of Georgia 
some 40 miles south of Savannah--in 1942 occurred because of a 
conspiracy among McIntosh County officials who intentionally led 
representatives of the Federal government to Harris Neck, right past 
more than 3,500 acres of virtually uninhabited land, just a good stones 
throw from the southwest border of the community. This other available 
property had been owned by E. M. Thorpe, one of the largest landowners, 
at that time, in McIntosh County. According to many families in Harris 
Neck, E. M. Thorpe had acquired much of his property in Harris Neck by 
underhanded and unethical practices, and by the time of the taking in 
1942, he was the largest landowner in Harris Neck--white or black.
    The original taking via Eminent Domain was highly illegal, with the 
people's Fifth Amendment rights to Due Process being violated in a 
number of ways through its hurried and carelessly executed 
implementation of Eminent Domain. A list of these violations is being 
submitted with this testimony.
    2. Compensation: The key word in the law, regarding compensation, 
is that it be ``just''. The taking of Harris Neck was not just, not by 
a long measure, because first, not everyone was paid. Second, white 
families, who owned property but did not live on Harris Neck and had 
not made any improvements to their property (with the exception of the 
two single white women who lived in the community), were paid 40 
percent more than the African American families who, over the decades 
since the end of the Civil War, had created a thriving community with 
houses, barns, other out-buildings, seafood processing buildings, 
general store, churches and more. Third, not a single African American 
family was paid for anything but their property; there were no payments 
for any ``improvements'' as required under Eminent Domain. Fourth, 
payments from the Federal government did not go directly to the African 
American families; they went through E. M. Thorpe, who may or may not 
have disbursed monies correctly and fairly.
    E.M. Thorpe may have been designated as an agent for these Harris 
Neck transactions by the government, but he was no friend of the people 
from Harris Neck. Rev. Thorpe and Wilson Moran will speak better and 
more personally to this.
    3. Assurances to the community about reclaiming its property: 
Reverend Thorpe will speak more personally to this. However, regarding 
assurances or a promise made to return the property after World War II, 
I would like to site the 1934 decision of Olson v. United States. In 
this case it was rightly stated that the owner of condemned property 
should be placed ``in as good a position pecuniarily as if his property 
had not been taken. He must be made whole, but is not entitled to more. 
It is the property and not the cost of it that is safeguarded by state 
and federal constitutions.'' The community was destroyed. Their entire 
way of life--their livelihood--was destroyed. People died heartbroken 
months later. The people were greatly harmed and left in a much-worse-
off position than they were before the taking.
    It was the Federal government's responsibility after World War II 
to contact members of the former Harris Neck community, whether or not 
there was a promise to return the land, which all the living elders 
will swear to the fact that there was, indeed, such a promise made. 
Many families from Harris Neck were then (after the war) living within 
two miles of their homeland; they stayed close by because of what they 
had been told by the government: Don't go far; the land will be 
returned to you after the war. However, after the war the government 
talked only with McIntosh County officials, and even though the county 
commission did some good public talking, at that time, about 
reacquiring the land on behalf of the former community members, the 
county got the land for itself in 1947.
    Over the next 14 years, county officials used Harris Neck for a 
number of illegal ventures--including prostitution, gambling and drug 
smuggling--while the contract with the War Assets Administration said 
the land was to be used only for a county airport. But this was how 
things went in the 1940s in McIntosh and neighboring counties. This 
section of Georgia was run by what was referred to as the ``Big Four'', 
a small group of corrupt and very powerful men that included the 
infamous McIntosh County Sheriff Tom Poppell. To deny the reality of 
life for African Americans in this region in 1942 or not to consider it 
in this matter creates an opening for continuing injustice.
    Because of all the county's abuses of its contract, the Federal 
government took the land back in 1961. It then had another chance to 
bring justice to Harris Neck, but instead it once again did not contact 
anyone from Harris Neck and chose, instead, to transfer title to the 
Department of Interior. Since 1962, the United States Fish and Wildlife 
Service (FWS) has used Harris Neck as a National Wildlife Refuge.
    In both instances (after the war and in 1961-62) no one from Harris 
Neck knew anything about official proceedings regarding their property 
until well after the deals were done and the property was in the hands 
of McIntosh County and FWS, respectively.
    It does not matter how FWS came to be titleholder of Harris Neck or 
that, as personnel from FWS have told us, they are just carrying out 
their mission as mandated by law. What matters is that the original 
taking was wrong and it was illegal, and, therefore, we contend, each 
transfer of title since the original taking has been invalid and, 
therefore the property still belongs to the original families.
    4. Steps taken over the past 70 years to address this issue: The 
government has not initiated any such steps. The community has made 
them, starting in the late 1970's, and the government has responded. To 
speak briefly about the lawsuit that was filed on behalf of the people 
of Harris Neck and the decision rendered by Judge Avant Edenfield in 
1980, both are irrelevant today, since there was never any legal remedy 
available to Harris Neck; justice (equity) lies only with Congress. And 
as Congress showed in 2005, when it legislated the return of more than 
15,000 acres to the Colorado River Indian Tribes (CRIT), there is no 
statute of limitations on justice, thus speaking to Judge Edenfield's 
main point in his decision--that, by 1980, too much time had passed on 
this issue. (CRIT's land was taken before Harris Neck was taken--during 
Woodrow Wilson's presidency.) And on the issue of equity, I would like 
to state that everyone from Judge Edenfield to Secretary of Interior 
James Watt has said that the equity with regard to Harris Neck belongs 
with the community, not the government. There was also legislation 
drafted in this time period, but due to lack of support, H.R. 4018 
never made it out of committee.
    Nothing much happened, regarding the property, from the early 1980s 
until 2006, when community representatives first met with Congressman 
Jack Kingston to speak about the issue of Eminent Domain and other 
concerns. Since then, representatives of the Harris Neck Land Trust, 
which was formed in 2006, have been working with Mr. Kingston and 
several other members of Congress. In December 2009 we met with Mr. 
Kingston, Congressman John Lewis, legislative staff of other 
congressmen, and high-ranking officials of FWS. At that meeting, 
everyone in Congressman Kingston's office agreed to find what Mr. 
Kingston called for--an ``equitable solution'' to this issue. In March 
of 2010 we had a follow-up meeting, with most of the same parties in 
attendance, at the Savannah regional headquarters office of FWS. A few 
months later Board Chair, Rev. Robert Thorpe received a letter from 
FWS, offering us 1) a homecoming day and 2) a kiosk. This is FWS's idea 
of an equitable solution.
    We have dealt honestly and openly with everyone involved during the 
past six years of the Harris Neck Justice Movement, but we do not feel 
FWS has acted honestly or professionally. For example, at the March 
2010 meeting a FWS archeologist said that another reason the land could 
not be returned to the people is that Harris Neck is ``wall-to-wall'' 
archeological/cultural sites. The scientific literature shows that 
there are only a handful of such sites. (Please see our map, being 
submitted, of these sites--north of Harris Neck Road.) We have met with 
one of the premier archeological/cultural resource management firms in 
the southeast, and we plan to have them conduct the first-ever, 
comprehensive, acre-by-acre site analysis. We will protect and preserve 
whatever is found, as well as the few presently identified sites, and 
we plan to sign these sites and make them part of one of our many 
educational programs in the new Harris Neck.
    5. The government's offer to compensate anyone represented by the 
Trust: Aside from the kiosk and homecoming day that FWS has offered 
(mentioned above), the Federal government has not made any offer of 
compensation to any individual represented by the Harris Neck Land 
Trust. Regarding compensation, the Trust does not want any financial 
compensation; the Trust wants the land of Harris Neck (all 2,687 acres) 
to be returned to the rightful owners--the white and black families/
individuals that owned property on Harris Neck in 1942.
    Additionally, I wish to make the following comments:
    The Harris Neck Land Trust is comprised solely of the previous 
rightful and legal owners, black and white, of property in Harris Neck. 
It represents all living members of the original community and their 
legal descendants. Each family has appointed a family representative to 
the Trust, and most of the original families have been located and are 
represented. This is a democratic, grassroots and bipartisan movement. 
Although perhaps the majority of those in the movement are Democrats, 
the Chair and Co-chair of the Trust's Board of Directors, as well as 
many other members of the Trust, are Republican. The members of the 
Board of Directors are all from Harris Neck. The Trust's membership has 
been meeting monthly for the past six years to think about, discuss, 
research, and vote on all the key issues involved in Harris Neck and 
our plans for a new community.
    We have a scientifically based community development plan, put 
together after more than two years of thoughtful dialogue and careful 
planning. In developing this plan we had the assistance of a natural 
and cultural resources consulting firm and an architectural design 
company. We feel our plan is not only environmentally and culturally 
sensitive but that the new Harris Neck could very well become a model 
of sustainable community living for rural America. We have reached out 
to a large number of individuals, organizations, academic institutions, 
and government agencies, and we have formed partnerships with many of 
these. Our community plan includes the maximum possible use of wind and 
solar energy and other renewable energy sources as well as the 
comprehensive analysis of cultural/archeological sites on Harris Neck. 
Regarding this analysis and the issue of protecting the cultural sites 
and the wildlife, land and waters of Harris Neck, Harris Neck was a 
Gullah community where many people also had Native American ancestry. 
Therefore, the ethic of cultural and environmental preservation and 
stewardship could not be stronger, and the Trust has made the strongest 
possible commitment to have this ethic be the guiding force in the new 
Harris Neck.
    Regarding the wood stork and the other migratory birds that come to 
Harris Neck seasonally, there are many successful rookeries close, and 
in some cases extremely close, to human settlements/activities in the 
southeast. The claim by FWS that the wood stork, ibis, herons and 
egrets cannot coexist with human beings is completely unfounded and 
disingenuous. FWS's claim contradicts the experience of former 
community members, who lived harmoniously with the wood stork and all 
the wildlife in Harris Neck, our research, and that of ornithologists 
who study these birds.
    Our community plan will protect and preserve the wildlife, land and 
waters of Harris Neck. It sets aside, for permanent protection, all the 
ponds created by FWS and puts a buffer zone around Woody Pond, the main 
bird nesting pond, that is twice the setback distance recommended by 
the scientific studies. This pond is also surrounded by dense forest, 
providing even greater protection for the birds during their critical 
nesting season.
    Our plan will also place more than half the total acreage in 
permanent conservation easements. People will be able to return to the 
organic farming that it once did in a community that was sustainable 
and ecologically sound long before such terms became a common part of 
our lexicon.
    We feel that FWS's stated opposition to the return of Harris Neck 
to its rightful owners has little or nothing to do with the wood stork 
and other birds or the alligator or any of the other wildlife or their 
habitat or the cultural sites. This issue, in our experience, is about 
FWS's refusal to give up a single acre in its 150 million-acre national 
system, of which the Harris Neck National Wildlife Refuge represents 
less than .0001 percent of that total. We fully recognize the need for 
this refuge, but there is no substantiated reason and no scientific 
evidence to say that the birds and other wildlife in Harris Neck cannot 
coexist with people and the human activities we anticipate via our 
community plan.
    Furthermore, it is our desire to have FWS continue its presence in 
Harris Neck and to have its staff continue doing the work they have 
been doing on the refure. Our vision of the future in Harris Neck is 
one of a good working partnership with FWS. We have approached FWS 
about this, but to my knowledge they have not responded. Nor have they 
responded to our community development plan, except to say it lacks 
specificity. Also, we do not want any FWS personnel to lose their jobs, 
and with our plan there is no reason they should.
    Regarding the idea or contention that by returning Harris Neck a 
precedent may be set that would result in efforts by communities around 
the country to reclaim other property, now in one form of Federal or 
State protection or another, we think the Harris Neck case is unique--
from the 1942 taking to the present. The return of Harris Neck to the 
Trust will not displace or adversely affect anything in the present 
wildlife refuge. In addition, the economic stimulus and job creation 
(from professional to semi- and low-skilled positions) that should 
result with the implementation of our community development plan will 
help a county, which is one of the poorest in Georgia. While fully 
protecting and preserving what is now in the refuge, the return of 
Harris Neck and the implementation of our plan will also put this 
valuable property back on the tax roles for the first time in decades, 
and this may all be accomplished without any Federal funding. Also, 
public access to Harris Neck will not only be maintained, but our plan 
calls for creating many educational and other related programs that 
will greatly enhance the public's experience in Harris Neck.
    We respectfully urge this subcommittee to do all in its power to 
begin, and move forward, the congressional process that, hopefully, 
will lead to justice being done for the people of Harris Neck.
    Note: Our Eminent Domain attorney is unable to be with us at this 
hearing, due to the short notice we received. Perhaps this subcommittee 
would consider submitting questions to our attorney and he could 
respond to them.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Kelly.
    And now, Mr. Moran, you are up for 5 minutes, sir.

 STATEMENT OF WILSON W. MORAN, BOARD MEMBER, HARRIS NECK LAND 
         TRUST, DIRECT DESCENDENT OF MR. ROBERT DELEGAL

    Mr. Moran. Thank you, sir.
    I guess what I will be talking about this morning is about 
the history of the Gullah-Geechee people.
    A sidenote: My great grandfather, he refused to be called 
``Indian,'' but I guess he was native or indigenous, because I 
can prove that I am very much part of the Cherokee Nation.
    For us, the Gullah-Geechee people, it really started with 
us in 1863. That is when President Abraham Lincoln issued the 
Emancipation Proclamation. But for a person that has been 
enslaved for over 200 years, what is freedom? It has to be more 
than the Emancipation Proclamation.
    So General William T. Sherman, his march from Atlanta to 
Savannah, after some difficult situation he encountered, issued 
Field Order 15. And I am quite sure all of you are familiar 
with Field Order 15. And Field Order 15 gave every outlying 
island from the southern tip of North Carolina to the northern 
tip of Florida and some places 30 miles inland on the mainland 
to these recently freed enslaved people.
    So what is freedom? What is this tied to? Well, given a few 
mules and some plows and some seeds, these people began to 
realize what freedom meant. So they began to enjoy freedom 
closely tied to economics.
    My great grandfather--whose father, Edward Delegal, a white 
man--his name was Mustapha Delegal. He changed his name to 
Shaw. You go to U Street and you look up the 33rd Infantry and 
you will find his name there, because he fought in the Civil 
War. He was injured in Savannah, mustered out in Beaufort, 
South Carolina. But he jumped at the chance for this Field 
Order 15, and so he went to Ossabaw Island and he began to 
understand what this was all about.
    But the unfortunate thing that happened for us was 
President Abraham Lincoln got assassinated. President Johnson 
took over and was convinced by the powers that were at that 
time to rescind Field Order 15. So my great grandfather 
Mustapha, he was at zero again.
    Even though he was a Civil War veteran--and I might add, he 
was never commendated for it--he was forced off of Ossabaw 
Island because he refused to be a sharecropper, and he 
disappeared. He wound up near Harris Neck at his grandfather's 
old plantation.
    But Margaret Ann Harris, being an heir of the older 
plantation owners, Peru and Muller and all these other places, 
she was given ownership of the land all over again. And because 
of her white overseers cheating her, she asked Robert Delegal, 
my grandmother's cousin, to oversee her property, with a 
promise that he would take care of her, because she was old, 
and her son, who was an invalid, and which he did.
    So now we began to enjoy all this prosperity all over 
again. And by the late 1800s, we had everything--the school, 
the fire station, the factories. We bought, and we sold. We 
were having a great time.
    But in 1942 we wound up at zero again because our Federal 
Government needed our land. We gave it, and it was never 
returned to us. It is wrong. And I pray that my government, who 
is of the people, by the people, for the people, will give us 
the opportunity to have those things that my ancestors had. And 
we lost our culture because there are certain people in the 
government that refuse to allow us the opportunity to do it 
again.
    Thank you, sir.
    [The prepared statement of Mr. Moran follows:]

              Statement of Wilson W. Moran, Board Member, 
                       Harris Neck Land Trust LLC

    It really started for us in 1863. General William T. Sherman issued 
Field Order 15, giving us ownership of all the islands starting from 
the southern tip of North Carolina, through South Carolina, Georgia and 
to the northern tip of Florida. Including some land up to 30 miles 
inland on the mainland. My great grandfather Mustapha D. Shaw son of 
Edward Delegal, a white land owner, having been injured while fighting 
in the Union Army, jumped at the opportunity to own land. Owning land 
was a form of freedom. He went to live on Ossabaw Island, just 
southeast of Savannah, GA. He did well utilizing his skills as a farmer 
and fisherman but it was short lived as President Lincoln was 
assassinated during this period in Mustapha's life. President Johnson 
became the new President. The power people convinced President Johnson 
to rescind Field Order 15. Thus my people lost everything. My 
grandfather refused to become a sharecropper. A warrant was issued for 
his arrest. Armed with his army issued Revolver, Rifle and Bowie knife, 
he fought his way off Ossabaw Island, got into a boat and disappeared. 
He escaped to his grandfather's old plantation which was situated near 
Harris Neck. Once again he was back to zero. Then another strange thing 
happened. Margaret Harris, an heir, was given ownership of most of the 
old plantation homes. She was elderly and her son was mentally ill. 
Because her white overseers were cheating her, she employed a black 
man, Robert Delegall to be her overseer. She made a will and testament. 
In this Will, Robert would agree to take care of her and her son. In 
turn he could sell land to the black people already living on said 
property. Eventually, Robert sold most of the land to about 75 black 
families. Now we have to start again. By the late 1800's, we are doing 
extremely well. We have a church house, firehouse, school house, crab 
factory and oyster factory. We are buying and selling. We are quickly 
learning that freedom is closely tied to economics. After much blood, 
sweat and tears we are beginning to reap some of the benefits of our 
hard labor. After many years of hopelessness we now have hope. In 1942 
it happened again. It's World War II and the German U-Boats are blowing 
up our merchant ships. The war department needed a place in which to 
build an airbase. Our white county leaders steered them to the 
community of Harris Neck. Our government claimed Imminent Domain, 
giving us two weeks to move out. In a blink of an eye, we were wiped 
out. We lost everything, including our culture. Now we are back to zero 
again.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Moran.
    Next, Reverend Thorpe, Mrs. Greer, and Mr. Relaford, I 
believe you are dividing the 5-minute time period.
    And so we will now recognize Reverend Thorpe.

 STATEMENT OF REVEREND ROBERT H. THORPE, PASTOR, PEACEFUL ZION 
                   CHURCH, SAVANNAH, GEORGIA

    Rev. Thorpe. To the honorable members of the Subcommittee 
on Fisheries, good morning. My name is Reverend Robert H. 
Thorpe, the Pastor of the Peaceful Zion Baptist Church, 
Savannah, Georgia.
    I am here concerning the house that I was brought up in, 
raised by Robert and Amelia Dawley. Was born April 3rd, 1931. 
In the year of 1942, the government sent surveyors into Harris 
Neck--no representative, no notice, or no question. They sent 
them in surveying our property, knowing nothing about what is 
happening. But a week later, there is a gray 1942 brand-new 
station wagon, Pontiac station wagon, came up to our house. And 
my grandfather, Robert Dawley, went out to speak to him, and I 
went along with him.
    He introduced himself as being Mr. Banks, a representative 
from Washington, D.C. And my father and grandfather asked him, 
``What's going on?'' And he said, ``The government needs this 
land for an Army airbase.'' And so my grandfather said, ``Well, 
now, if y'all going to take it, when we gonna get it back? Are 
you gonna give it back?'' They said, ``Yes.'' ``When,'' my 
father and grandfather said, ``When are you going to give it 
back?'' They said, ``After the war is over. After we finish 
with it, we will return it to you.''
    So my grandfather asked him, said, ``Well, now, where will 
we go? Where are we going?'' He said, ``I don't know. I don't 
know nothing about where you're going. All I know, you got to 
go. In a few days, you're going to have to leave here.'' And he 
said, ``Well, are we going to get any help or anything?'' He 
said, ``That's not in my hands. I don't know nothing about 
that. And if you don't move, this place will be destroyed, 
pushed down, and burned.'' After the 2 weeks' notice that he 
gave us.
    So, therefore, we found a man to move us, Mr. Irvin Davis, 
McIntosh County. He had some 32 acres of land just about 2 
miles out from our home. And he shared those 32 acres among us, 
which we got about an acre and a half of land to all that we 
had in Harris Neck. Our farming, and you know what happened to 
that, it was over. We would plant a little garden and did the 
best that we could.
    And it was in the season of maturity of our crops, July. 
All of our stuff that we had planted--our corn, potatoes, 
tomatoes, fruit trees, and everything that we would depend on 
for a living--because we made our living from the land to the 
rivers, which in we fish for craps, shrimps, and we gathered 
oysters. This was our living. But we were pushed out. Not asked 
out, we were pushed out. ``You've got to leave.''
    And another thing come to me, that all of this 35 acres of 
land adjusted to us had one house on it--one single house. And 
here go a community of people trying to live on that 35 acres 
right there. Why? They took our land.
    It just was an injustice at that time, but now, after 
explaining this to you all, you know right from wrong. It is 
time for justice. That is all we want, justice. We want to go 
back to our home. Somebody say, ``You an old man over 80 years 
old.'' I have children, grandchildren, great grandchildren to 
go back to that land. And we just asking for peace. We looking 
for mercy. We looking for justice. That is all.
    [The prepared statement of Rev. Thorpe follows:]

 Statement of The Reverend Robert H. Thorpe, Former Board Chairman of 
            the Harris Neck Land Trust and Harris Neck Elder

    I was born on Harris Neck April 3rd 1931 in this house, where I was 
raised by my grandparents, Robert and Amelia Dawley. In 1942 the 
Federal government sent surveyors in to Harris Neck to survey our land 
without any notice or questions, and about a week after they sent in a 
government representative from Washington, DC whose name was Mr. Banks. 
Mr. Banks came to our house, and my grandfather went out and spoke with 
him and I went along. Mr. Banks said he represented the Federal 
government and that the government needed our property for an army 
airbase, and that we would have to move out in a few days. Then my 
grandfather asked him, ``If you take our property are we going to get 
it back?'' And Mr. Banks said, ``Yes, when the government is finished 
with it they will return it back to you. My grandfather asked him, ``If 
we have to move where should we go?'' He said: ``I don't know anything 
about that. All I know is you have to move in a few days, and if you 
don't move your house and everything will be destroyed--pushed down or 
burned.'' So, my grandfather asked him if we were going to get any help 
for moving. He said, ``No, you'll have to move on your own.''
    So, my grandfather took his crowbar and hammer and went to the 
front door first and started taking the facing off the door. And piece 
by piece he tried to save all the lumber on the house, because he had 
no money to buy materials to build another house at that time or to 
move. At that time our crops were just maturing, and we had to leave 
all that behind us. And that was part of our living. Corn, potatoes, 
beans, tomatoes, all our fruit and nut trees. All that was left behind 
and destroyed.
    We were offered a piece of land a couple of miles away by Mr. Irvin 
Davis of McIntosh County. We had to purchase this land, which was in 
Eagle Neck, from Mr. Davis. It was an acre and a half, much less than 
what we had on Harris Neck. We planted a small garden, which again was 
nothing like what we had on Harris Neck. After the war ended, the same 
Irvin Davis came out to our church, First African Baptist--which we had 
taken down on Harris Neck and rebuilt on Eagle Neck--with his lawyer 
who spoke for him. He told us that the government is not using the land 
anymore now, but they're not going to return it back to us right yet. 
He asked us if we would agree to let Mr. Davis use the land as a cow 
pasture for his cows. We said, ``Yes, Mr. Davis is welcome to use the 
land.'' It was years later that we found out that the Federal 
government had given the land to McIntosh County. We never knew 
anything about any proceedings that had taken place between the Federal 
government and the county about this.
    Then again, years after that, we found out that the Federal 
government had taken the land back from the county and again, without 
our knowledge or any word from the government or anyone else, it gave 
the land, this time, to Fish and Wildlife.
    Justice for us from Harris Neck can only come from the return of 
our land. However, we have offered Fish and Wildlife to be partners 
with us in the new Harris Neck community. We would like them to 
continue doing their job of monitoring the ponds and protecting 
wildlife, which we will be setting aside and protecting in our plans. 
But we feel it is only just that our land be returned to us.
                                 ______
                                 
    Dr. Fleming. I thank you, Reverend, for your testimony.
    Now, you have used the entire 5 minutes of all three, but 
the Chair will indulge the other two Members another minute 
each if you would like to offer a statement? Or if that is 
the--would you, Ms. Greer, like to have a minute to offer a 
statement?

           STATEMENT OF EVELYN GREER, BOARD MEMBER, 
                     HARRIS NECK LAND TRUST

    Mrs. Greer. Good morning. My name is Evelyn Greer.
    And I just want to say this afternoon to you all that I am 
84 years old. I was 15 when the government took my home, and I 
told them--they told us as Reverend Thorpe said. I was there. 
We didn't get no kind of compensation, please believe it--none. 
My home burned, and everything I saw. There was no place to go.
    You know, so I just--I was trying to get some time, but he 
got it. So, anyhow, I just want to say that it is time now, as 
he said, for justice. We are here today not as beggars. We are 
here to see and ask you all to let justice prevail. We need the 
property. God made arrangement for the birds and the bees, but 
he said the son of man has no place to lay his head.
    And we thank you.
    [The prepared statement of Mrs. Greer follows:]

 Statement of Evelyn Greer, Harris Neck Land Trust, Resident of Harris 
 Neck Community in 1942, Member of Harris Neck Land Trust, and Harris 
                               Neck Elder

    Good morning. My name is Evelyn Greer. And I. . .I just want to 
say, this afternoon, to you all, that I'm 84 years old. I was 15 when 
the government took my home, and I told them. . ..They told us, as 
Reverend Thorpe said, (unintelligible). I was there. We didn't get no 
kind of compensation. Please believe it. None. My home burned, and 
everything I saw. There was no place to go, you know. So I just. . ..I 
was trying to get some time, but my, I got so. . ..anyhow, I just want 
to say that it is time now, as he said, for justice. We are here today 
not as beggars. We are here to see and ask you all to let justice 
prevail. We need the property. God made arrangement for the birds and 
the bees, but he said the son of man has no place to lay his head. And 
we thank you.
                                 ______
                                 
    Dr. Fleming. I thank you, Ms. Greer.
    And, Mr. Relaford, I will offer you a minute, as well.

            STATEMENT OF WINSTON B. RELAFORD, SR., 
              BOARD MEMBER, HARRIS NECK LAND TRUST

    Mr. Relaford. Thank you, Mr. Chairman.
    I am Winston Relaford, the son of Anna Shaw Overstreet, a 
descendant of the original Harris Neck community. My appearance 
before this august body today has one goal, and that is to urge 
this Committee to correct an obvious wrong. I appeal to you 
today to ensure that history correctly records and reflects the 
Congress that dared to do the right thing by upholding the 
constitutional rights of its citizens.
    What was done to the Harris Neck community in 1942 was an 
injustice, a wrong that must be righted. And this Committee has 
within its power to move on behalf of a neglected portion of 
America's citizenry. Let history show that you stood up today 
and began the process of making right an awful wrong.
    As you ponder the right and wrong, please remember the 
humanity of it all. You have heard the testimony of an 
impassioned and embattled people asking a government to honor 
them as they honored the government by giving in to the demands 
that the government asked.
    In closing, I would simply like to say that those families 
that have been displaced for so long, return the land back to 
the rightful owners, and that is the descendents of the Harris 
Neck people.
    God bless this Committee, and God bless the United States 
of America.
    [The prepared statement of Mr. Relaford follows:]

                Statement of Winston B. Relaford, Sr., 
          Current Vice Chairman of the Harris Neck Land Trust

    I am Winston Relaford the son of Anna Shaw Overstreet, a descendant 
of the original Harris Neck community. My appearance before this august 
body today has one goal; and that is to plea to this committee to 
correct an obvious wrong. I appeal to you today to ensure that history 
correctly record and reflect a Congress that dared to do the right 
thing by upholding the constitutional rights of all of its citizens.
    What was done to the Harris Neck community in 1942 was an injustice 
or wrong that must be righted and this committee has within its power 
to move on behalf of a neglected portion of America's citizenry. Let 
history show that you stood up today and began the process of making 
right, an awful wrong. As you ponder the right and wrong, please 
remember the humanity of it all. You have heard the testimony of an 
impassioned and embattled people ask of a government to honor them as 
they honored the government by giving in to demands that turned out to 
be way to costly. Our forefathers trusted the government because they 
loved this country and wanted it to succeed against our foreign 
enemies, but little did they know that the enemy from within posed a 
far greater threat to their constitutional rights and freedoms than 
that of a government that betrayed their trust.
    In closing, I simply ask on behalf of the families that were 
displaced so long ago that you return the land back to its rightful 
owners and they are the descendants of the Harris Neck people. To this 
committee, may God bless each of you and may God bless the United 
States of America.
                                 ______
                                 
    Dr. Fleming. Well, I thank you, Mr. Relaford.
    And I, again, appreciate your indulgence on that. And, 
again, one of the reasons to try to keep our testimonies brief 
is we want to have the opportunity to ask questions and give 
you an opportunity to respond and enlighten us even further on 
these very important issues.
    At this point, we will begin Member questions. To allow all 
Members to participate and to ensure we can hear from all of 
our witnesses today, Members are limited to 5 minutes--so, see, 
we are fair; we get 5 minutes, you get 5 minutes--for their 
questions. However, if Members have additional questions, we 
can have more than one round of questioning.
    I now recognize myself for 5 minutes.
    On December 7, 1979, Director Greenwalt of the Fish and 
Wildlife Service stated that, and I quote, ``It is premature to 
make a judgment or talk in terms of support or nonsupport. We 
prefer to withhold our recommendation on the preferable 
remedy.''
    Ms. Dohner, that has been 32 years. Is the Service ready to 
share its opinion?
    Ms. Dohner. Sir, as I said in my oral testimony and my 
written testimony, that the information that we have to date--
the Federal rulings and the GAO report--indicate that there is 
no evidence of improper procedures when the DOD condemned the 
lands. We do not have the information from the DOD 
condemnation.
    I will tell you that the Service is open to future dialogue 
and working together if new information is brought forward. We 
have requested information from the different parties, 
including the Land Trust, as far as this issue, and we have 
done legal reviews of that information.
    Dr. Fleming. Thank you.
    Does the Service believe a remedy is required?
    Ms. Dohner. Sir, we believe that the land and the DOD 
condemnations were done correctly and that there was 
compensation provided to the families. And, again, until there 
was additional information provided that would indicate 
otherwise, we would have to take that and work with not only 
Congress but do the reviews, liked I talked to you.
    Dr. Fleming. OK. So you feel--I understand from your answer 
that you do not feel any further remedy is necessary. Is that 
correct, yes or no?
    Ms. Dohner. Sir, at this time, the Service, I as the 
regional director, cannot administratively make a change in 
the----
    Dr. Fleming. But that is not my question. And I am not 
trying to be confrontational; I am just trying to make sure we 
have a clear answer. So, in your opinion, or in the opinion of 
your Service, you don't believe any further remedy is necessary 
at this point.
    Ms. Dohner. Over and above what I am allowed to do to work 
with the Land Trust, over and above allowing them to use the 
property, no, sir. I believe, as in our written testimony it 
said, the court rulings upheld the decision that was done in 
the 1940s, and the GAO report upheld that and found, again, no 
evidence----
    Dr. Fleming. But, also, did I not hear you say that you 
don't have all the information necessary?
    Ms. Dohner. Sir, we have as much information from the court 
rulings and the DOD. And, again, we have asked the Land Trust 
for everything. And the evaluation of all that information 
indicates there has been no--there is no evidence of improper 
process that was done.
    Again, the Service is willing to go forward if new 
information is brought forth, and we will have that 
conversation.
    Dr. Fleming. So you feel that the information has been 
adequate to come to the conclusion that there is no further 
remedy.
    Again, this is not a trick question. I just want to 
establish kind of a baseline here of where the Wildlife Service 
stands on this issue.
    Ms. Dohner. So the Fish and Wildlife Service administers 
these lands as part of the National Wildlife Refuge System. And 
the Refuge Administration Act that mandates how we manage these 
lands, I administratively cannot let these lands go. There are 
other ways that they can be done. Congress can do that. At this 
time, we believe----
    Dr. Fleming. Yeah, but, again, you are answering in terms 
of what you can and cannot do, the powers you have or don't 
have. That is not my question. My question is, assuming that 
you have all power and all resources, do you feel that there is 
any further remedy that is necessary in this case?
    Ms. Dohner. Again, sir, based on the law and the records 
and the court rulings and the GAO report, the further remedies 
that I can offer are things that I can do within the bounds of 
those laws.
    Dr. Fleming. Do you feel that--well, first of all, do you 
feel that the case being made here today is a compelling one? 
We hear reports of payments made to a person who didn't 
properly represent the landowners. We hear where people lost 
their land, they lost their livelihood. Do you find that a 
compelling case on a human level rather than on a legal level?
    Ms. Dohner. Sir, I would tell you that on a human level I 
believe that justice has to be served. And I would tell you 
that the Service believes that we have evaluated--and, again, 
the court rulings--that what was done in the 1940s followed the 
proper procedures.
    I can't tell you what actually happened. I don't know the 
specifics of the things that they reference about McIntosh 
County and the other gentlemen. I don't have that information.
    Dr. Fleming. Well, do you feel the Service has any 
obligation, or any further obligation, in this matter?
    Ms. Dohner. I believe that the Service can offer additional 
things to the community, things that we could allow them to do 
things, things like a national heritage day. We can work with 
them for use of the refuge and use of the land. But the Service 
doesn't have the authority to administratively give these lands 
back.
    Dr. Fleming. Yeah, I just want to make a summarizing 
comment to that. It is interesting, we have had prior hearings 
with regard to the fact that the Service actually has the power 
to create refuges without consent of Congress, but it is very 
interesting and sometimes convenient that the Service cannot 
end a refuge and seems to argue and hide behind the argument, I 
think, that we have plenty of power to create refugees, but 
when time comes to discuss perhaps changing or ending them, 
that the Service doesn't have any power at all in that regard.
    You don't need to answer that. My time is up. Thank you.
    I now recognize the Ranking Member, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And I come from a place where, by accident of being lost at 
sea, Ferdinand Magellan claimed that they owned the islands I 
live on. But here we are 500 years later, and we are very happy 
to be part of the United States. We also only had access to 
legal services the past 30 years. Now I also think we have too 
many lawyers, actually. But I am not taking sides here. I do 
hear--and I am very curious in the conversation we are having.
    But let me ask, also, Ms. Dot Bambach, because I am a 
supporter of wildlife refuge also. It is very important to the 
islands I live in. But would you please provide us some example 
of how volunteers--and I love volunteers--such as yourself, 
support Harris Neck National Wildlife Refuge, please?
    Ms. Bambach. Certainly. I would be happy to.
    Let me tell you, just from the people that I have worked 
with directly, we have pruned shrubs, we have cleared trails, 
we have removed invasive plants, we have given presentations 
about the Refuge to various school and civic groups, we have 
organized and conducted bird surveys, we have monitored nesting 
bird colonies, we serve as docents at the visitor center, we 
lead field trips and tours, we interpret the Refuge for 
visiting groups of children and adults.
    Personally, three times a week, all day long, three times a 
week, from March through most of August, I drive 110 miles 
roundtrip, I get out with my two artificial hip joints, I climb 
a straight-up, vertical 60-foot ladder into an observation 
blind, and I sit up there with the heat and the bugs for 4 to 5 
hours at a time monitoring our wood stork colony. And I am 
typical of our volunteers. We support the Refuge, and we value 
it highly.
    And I would like to add that I need to think because of its 
value, both to the community and to the wildlife that it is 
supposed to be protecting, that we need to set the bar pretty 
high before we second-guess the original transactions that went 
on and that have been upheld by both the courts and the GAO 
report. I don't think we should be looking at changing that 
based on anecdotal evidence.
    And we have been trying to look at hard evidence, stuff 
that we can document, and there isn't much of it, but what does 
exist indicates that there was due compensation paid here and 
the transactions to condemn the property were properly made.
    Mr. Sablan. And I will leave that to other Members to ask.
    But, Ms. Dohner, would you please describe how the 
Service--your efforts to support the tens of thousands of 
visitors who come to the Harris Neck National Wildlife Refuge 
every year?
    Ms. Dohner. Sir, the Fish and Wildlife staff, it is a small 
staff. There are only about four people at the Refuge. But what 
they do is they have, one, the technical expertise to ensure 
that they can manage not only the land to support the fish and 
wildlife, but they also work to make sure the trails are clear. 
There are opportunities for the public on the auto trail that 
people can go on. They provide educational opportunities to the 
public for the schools to come. So, between the fishing and the 
hunting--there are two annual hunts that the staff administer--
there are many opportunities that the public can come. And as I 
said, there are about 90,000 visitors that go to the Refuge.
    So we have the staff that are capable to not only manage 
the fish and wildlife aspect and what is needed on the lands to 
support those populations like the endangered wood storks, but 
we ensure that the public are safe when they do come and take 
these opportunities.
    Mr. Sablan. I yield back for now, Mr. Chairman.
    Dr. Fleming. The Ranking Member yields back.
    I now recognize Mr. Kingston--oh, I am sorry. I apologize. 
Ms. Hanabusa, you have been somewhat quiet today, so we almost 
overlooked you. I apologize.
    So I now recognize Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Thank you.
    And I know Mr. Sablan didn't mean anything when he said we 
have too many lawyers, and he didn't mean me, right? Thank you. 
Thank you, Mr. Sablan.
    Ms. Dohner, I am an attorney, so of course when you say 
that your two court cases that you rely on, plus the GAO 
report, my first request to the Chair would be that you provide 
this Committee with copies of the two cases as well as your GAO 
report.
    And I would like to ask you, are any of those cases United 
States Supreme Court cases?
    Ms. Dohner. Ma'am, they are the 11th Circuit Court----
    Ms. Hanabusa. The 11th Circuit Court.
    Ms. Dohner.--but they are not Supreme Court cases. And we 
will make sure that you get that information.
    Ms. Hanabusa. Thank you very much.
    And as you probably know, during the same timeframe, 
Japanese Americans were relocated. And there is a U.S. Supreme 
Court case that said that there was nothing wrong with that, as 
well. And it took congressional action to give them a form of 
compensation. So simply because the courts may say that there 
is nothing wrong with it, it doesn't necessarily then say that 
the injustice that was committed is somehow right. But that is 
why I would like to have that information from you.
    It seems to me, from listening to your testimony, Ms. 
Dohner, that what you are saying is that, because of the two 
cases and because of the GAO report, the Service is not going 
to look any further, that that is your authority and that is 
what you are relying on. Am I hearing you correctly?
    Ms. Dohner. No, ma'am. We said that if there was additional 
information that would come forth that we would have that 
conversation, that discussion and that review. We have done 
legal reviews in the past. When we met with the fund in the 
past, they said they did have additional information. We asked 
and were provided information, and we have done legal reviews. 
We would, as we go forward, continue to do that type of 
analysis and discussion.
    Ms. Hanabusa. Is there anything in writing of the results 
of these legal reviews that you have done?
    Ms. Dohner. We do have some of that information, yes.
    Ms. Hanabusa. Can you also provide us with that?
    Ms. Dohner. Yes.
    Ms. Hanabusa. Because what I don't want to see is another 
generation go by and you are still in review. We would like to 
have some kind of an understanding of what exactly the 
Service's position is. So I would appreciate that.
    Ms. Dohner. Yes, ma'am.
    Ms. Hanabusa. Thank you.
    Mr. Kelly, you are the Project Coordinator for the Harris 
Neck Land Trust, and you have been that for 6 years, or the 
movement has been in place for 6 years?
    Mr. Kelly. Yes. The movement started in December of 2005.
    Ms. Hanabusa. December of 2005.
    Mr. Kelly. And the Trust was formed in 2006.
    Ms. Hanabusa. In 2006?
    Mr. Kelly. Yes, the Trust was actually formed. The movement 
began a few months before the Trust was formed.
    Ms. Hanabusa. In listening to the testimony of the 
descendants, I would like to understand--and your testimony--
there seems to be somewhat of a discrepancy as to the word 
``compensation.'' Is the compensation that you are seeking 
monetary compensation, or is it the return of the lands?
    Mr. Kelly. The compensation we are seeking and the 
community has been for a long time is the land, and that it is 
not financial. And the whole issue of compensation, again, 
revolves around the word ``just.'' This is not just.
    Ms. Hanabusa. No, I don't take any exception to that. I am 
just trying to understand what it is.
    So the lands--I assume that in the information that Ms. 
Dohner would provide to us we would have some kind of a list of 
the members of your Land Trust and the portions of the land 
which they are claiming. Would that be correct?
    Mr. Kelly. Yes. And we have a--we have developed a 
community plan, with the help of a scientific, cultural, and 
natural resources consulting firm and many others. We spent 2 
years on it. We invited the public. We considered every 
possible aspect. And our plan sets aside more than half of the 
total acres in permanent conservation, where the only thing 
that could be done is organic farming.
    And the rest of the acreage is going to be protected in 
similar fashion. We are going to protect all the ponds, 
especially Woody Pond. We are putting a huge buffer zone around 
Woody Pond, which is already densely wooded. And the buffer 
zone we are going to have is twice what all the ornithological 
studies call for.
    So we are going to protect what is there, and the 
development of the community is going to be environmentally 
sensitive to the nth degree.
    Ms. Hanabusa. Do you have your plan in writing?
    Mr. Kelly. Yes. It has been submitted to the Committee.
    Ms. Hanabusa. Thank you very much.
    Thank you, Mr. Chair. I yield back the remainder of my 
time.
    Dr. Fleming. I thank the gentlelady.
    Next, I will recognize Mr. Kingston from Georgia.
    Mr. Kingston. Thank you, Mr. Chairman.
    And I wanted to continue along the lines of Mrs. Hanabusa's 
questions. And, Ms. Dohner, what I don't understand--I really, 
as I opened up today, said I felt that everybody has been 
bargaining in good faith. But I have to tell you how extremely 
disturbed I am that Fish and Wildlife today are really not 
hitting any of the compensations in the original intent issues, 
yet you have said that you have not seen--your conclusion is 
that there has not been any evidence that has changed your 
mind. But you haven't shared with us what your evidence is. And 
the Committee, I understand, has requested that.
    And in our office, many years ago, it was my understanding 
that we would move beyond the emotional and the superficial 
dialogue into the weeds of, OK, here is who was compensated and 
here is how much they were compensated. And I have actually had 
friends of the Refuge present that to me in a very compelling 
way, but I am baffled, very baffled, why you are not showing 
that today.
    No one would argue the beauty of Harris Neck. No one would 
argue the ecological importance. No one would say Woody Pond is 
a bad idea. That is not relevant right now. What we are talking 
about is, was the process followed, were the procedures as good 
as they should have been, and what was the compensation. And I 
have been asking you guys that for many years now. And so I 
don't understand why, today, under oath, in front of the U.S. 
Congress, that that information has not been presented by Fish 
and Wildlife.
    I am not picking on you, because I know many years ago--I 
know that, you know, everything you respond to has to kind of 
be, you know, filtered and your lawyers have to sign off on it. 
So I understand that constraint. But I don't understand why you 
don't have a package of information saying, you know what, what 
they are saying is not true.
    And so, that is my question to you. Because I think Mr. 
Kelly is here with some, you know, kind of--wants to go point 
for point, and that is what I was hoping was going to happen 
right now. But it seems like Fish and Wildlife is still on 
that, ``There is no evidence,'' but not sharing with us how you 
came to that conclusion.
    So what I want you to say is, ``Here is the compensation 
answer.'' Here is what--you know, just--and do you know why 
Fish and Wildlife has not given that information to the 
Committee yet?
    Ms. Dohner. No, sir, I don't. But trust me, you will get it 
very soon.
    The information that we have is based on the DOD. DOD 
condemned these lands. The Fish and Wildlife Service didn't. 
You have already heard that. You know that.
    Mr. Kingston. Yeah.
    Ms. Dohner. We will ensure that you get that information, 
what we have, based on, again, those court records or that GAO 
investigation and then their follow-up report that does talk 
about what compensation was given, how much was given, and as 
they went forward what was done.
    Mr. Kingston. It absolutely has to be there. And I have to 
say that I am very disappointed, again, just because I thought 
that is what we were going to be seeing and hearing today. And 
some in the room might not like the answer, but, you know, the 
truth is the truth, and we are trying to get to justice.
    Now, let me ask you this, Mr. Kelly. The ongoing dialogues 
which we have had, I thought there was a little bit more 
discussion back and forth with your group and Fish and 
Wildlife. And Ms. Dohner says that the efforts have not led to 
any discovery of new documentation. Have you not shown them all 
of your documentation? Have you shown them what would be 
considered new documentation that would, you know, maybe reveal 
a new light on it, new angles?
    Mr. Kelly. Well, we met in your office in December of 2009. 
Then we met with--and Fish and Wildlife was there. Then we met 
again with most of the same parties, and Cynthia Dohner was 
there, in March. And after that meeting, the offer by Fish and 
Wildlife to us for what you asked for in your office, which was 
an equitable solution to this, their offer was a kiosk and a 
homecoming day.
    And Reverend Thorpe, as Board Chair then, answered the 
first letter that we got from Fish and Wildlife. But the Board 
and the community decided that that letter was so insulting 
that we chose not to answer it. And since then, the dialogue 
has broken down. Because that is not our idea of an equitable 
solution.
    And I told Ms. Dohner twice, at two meetings, that there 
are, depending on which archives--the first archives that I 
went into was closed, and the new archives was opened. So, 
originally, I went through 13 cardboard boxes of documents, 
most of which, or maybe all of which, hadn't been looked at 
since the 1940s. And I have in my office a couple of thousand 
pages of documents from all kinds of things, not only the 
archives.
    But I shared with them what I thought was the most 
appropriate. We have also given them the community development 
plan. Their only response to that is it lacks specificity. And 
if it lacks specificity, it is only because, you know, we don't 
have the access to the land that we really need. But it was 
developed with a scientific background. We are also willing to 
work with Fish and Wildlife to, you know, refine that.
    We have also--I want to make very clear that we have asked 
Fish and Wildlife to be partners with us when the land is 
returned. We don't want anyone to lose a job. We want them to 
stay and do the work that they are doing now, which is to 
protect and monitor the ponds and the other wildlife. And we 
want them to maintain the presence that they have right now, 
even to continue working on the other island.
    So we see this as a win-win partnership. But the land needs 
to be returned. That is justice, in this case.
    Dr. Fleming. Thank you for that testimony.
    We will have a second round, if our witnesses will indulge 
us in this. And I will lead off with a second set of questions.
    I want to revisit--we have talked about this, and I want to 
maybe bring this into better focus. What I believe I am hearing 
from our witnesses today who are, for lack of a better term, 
the aggrieved party, those who are descendants of the owners of 
this land, the former owners--clarify for me this.
    So, as I understand it, you are not looking for financial 
compensation; you are not looking to actually control the land, 
in the sense of building homes or developing or anything like 
that, although you do want the ownership back. So what you are 
saying today is that what you would like to see as a resolution 
of this is that the ownership is given back to you, I guess the 
deed or title or whatever, and that you would keep it in 
exactly the same form that it is today.
    I would love to hear responses from all the members here.
    Mr. Kelly. I am just going to say one quick thing and then 
pass it on to the others.
    The plan does call for the construction of low-impact 
houses and some other development, which is all based on what 
the community used to do back in the day. And, again, the 
partnerships that we have created with wind specialists, solar 
specialists, the use of the latest in wastewater treatment, et 
cetera.
    But Wilson and the others will speak to the rest.
    Dr. Fleming. OK.
    Mr. Moran. To continue with that, our great grandparents 
were--I guess you could call them ecologically inclined long 
before my country, this country, superimposed on it. Oysters, 
the crabs, the shrimp, the fish, the different species. They 
already had a plan in place for us, had we continued to live on 
this 2,687 acres of land. And the farming--all the farming they 
did was organic. So they built their own houses; they had the 
skills. They built their own small boats. They made their own 
nets, the cast nets. We were the custodians of that region. We 
knew about pollution long before my country started doing this 
pollution thing.
    If we had the opportunity--you have to recognize, even our 
cemetery, we don't own it. We are allowed to go bury people. 
Well, we only got about 20 spaces left. And the other cemetery 
that we did own was completely destroyed. And Sister Evelyn 
will tell you that the story about that is still yet to be 
told, of what happened to that cemetery.
    But the point here is, those people were highly successful 
in the 1800s living a simple life. And we could duplicate the 
same thing using modern technology, like wind power, solar 
power, leaving less of an imprint on the environment.
    And, plus, about the wood storks, I need to explain to you 
that the wood storks were always here. And more of them were 
here then than they are now, and we didn't have to lure them to 
stay here.
    Now, my grandfather would laugh and smile about some things 
that was happening----
    Dr. Fleming. Excuse me just a moment. I didn't catch--the 
who?
    Mr. Moran. The wood storks.
    Dr. Fleming. What is that? The wood stork. OK, I am sorry.
    Mr. Moran. My Geechee comes out every once in a while.
    They were always here. There were more of them here during 
my uncle's time than my time.
    But my grandfather would laugh after the land was taken 
from us, and he says, ``These people is going to destroy that 
land.'' And that was the part about Fish and Wildlife. He said, 
because once you lure a species to stay, you disturb their 
migration period. Like, if you were to keep a geese in one 
place, it would pollute the area, because a geese has to 
migrate. If you clip his wings and teach him to stay, then he 
will destroy another species. We knew this long before.
    So, yes, we can go back there. Our imprint would be so 
small you wouldn't even know that we were there. And, plus, 
even though our culture were destroyed, we still remember the 
ways that they lived. The forest, the sassafras tree, the 
snakeroot bush--all these natural medicines, we knew what they 
were----
    Dr. Fleming. I am sorry----
    Mr. Moran.--and we used them.
    Dr. Fleming.--my 5 minutes is up. We have to be just as 
strict on the Chairman as we do everybody else here. So I thank 
you.
    I now recognize Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Something along those lines. Mr. Kelly, you seem to be very 
familiar with the plan. You were talking about maintaining--in 
your prior testimony, you were talking about maintaining it 
with different kinds of, I guess, particular parts of the 
Refuge that you are talking to.
    Are you using conservation easements, or are you, you know, 
I guess, ready to consider conservation easements in that 
process?
    Mr. Kelly. Yes. Long ago, we settled that issue. So more 
than half the acreage, total acreage, is going to be put into 
permanent conservation. We don't know what trust will manage 
that; that is a small detail. But that is going to be put into 
permanent conservation.
    And then the rest of it is going to be managed--and we are 
willing to work, again, as I said, in the future with Fish and 
Wildlife on the management of that.
    Ms. Hanabusa. You know, the problem with situations like 
this--and, you know, being from Hawaii, we have the Hawaiian 
Homes Commission Act, for example, we have had things that have 
happened over the time. The problem is you can never really 
turn back the clock all the way. You can't undo--irrespective 
of the injustice. It is just a difficult thing to do.
    So the question that I have is, you have formed a Harris 
Trust. So is it anticipated that that Trust will continue to 
manage, assuming a settlement is reached, into the future?
    Because the concern would be that you can't do all of these 
things if there isn't some kind of an organization that 
oversees everything. Because once you get to the returning of a 
particular parcel to a particular person, then their rights to 
alienate the lands come into question, as well.
    So how did you envision or how did the plan envision 
anticipating those kinds of situations?
    Mr. Kelly. Yes. And, again, it is the Harris Neck Land 
Trust. And the request is that the land be returned to that 
trust, which will manage and protect the lands in perpetuity.
    And then, under that umbrella, if you will, there will be 
strict covenants put in for resale, for example, a 10-year 
moratorium on no resale whatsoever; the property has to go 
under that umbrella to the original families.
    And I would like to remind everyone that those are not just 
the black families but there are white landowners involved, 
some of whom were a part of this movement. We have approached 
them all. E.M. Thorpe's granddaughter--he was the largest 
landowner--she is part of the movement.
    Ms. Hanabusa. Now, I would also like to point out to you 
that, for example, with the native Hawaiians--and 1921 was when 
the law passed. It is the Hawaiian Homes Commission Act of 
1920. What that does is it prevents the alienation of lands. 
You have 99-year leases to a family, but they cannot ever 
alienate the land. In other words, it comes back to the 
Commission, to basically a form of a trust. And that is the 
idea, that those lands will always be there for native 
Hawaiians. And these are defined as people with 50-percent-plus 
blood quantum.
    But you seem to be indicating that there is an anticipation 
that people would be able to sell. Now, would that be a sale 
back to the Trust first----
    Mr. Kelly. Yes.
    Ms. Hanabusa.--or a sale to anyone?
    Mr. Kelly. Back to the Trust. And the Trust has to approve 
all future sales. So, for example, you know, this cannot go up 
to the highest bidder. There is not going to be the Hyatt 
Hotel.
    And just to remind the Committee, the two premier cultures 
in America regarding stewardship are the Native American 
cultures, you know, the 500 nations that were here, and the 
Gullah. And these two, this blood is in this community. And 
that is the guiding ethic within the Trust.
    Ms. Hanabusa. I hear you very clearly. And I anticipate you 
will provide that all in the plan. So the anticipation is that 
this will be held in trust, in perpetuity, for the benefit of 
all who were the original people there--the descendants of the 
original people that were there.
    Mr. Kelly. Yes. And we are going to--this is another rumor 
that has been spread, we are going to close down the community. 
That could not be farther from the truth. The experience the 
public will receive in the future will be greatly enhanced.
    I spend hundreds of hours in Harris Neck. I have never 
talked to a single birder--and I am one of those--who knows 
anything about the history.
    So, for example, one of the other objections that Fish and 
Wildlife has raised--and I am speaking word for word: ``We 
cannot return this land to you because Harris Neck is wall-to-
wall archeological/cultural sites.'' Do you know how many there 
are? Six. Four of those are in the wetlands.
    So we have hired the premier archeological consulting firm 
in Georgia to do the first ever comprehensive, acre-by-acre 
site analysis. And every piece of pottery, et cetera, that we 
find we are going to protect, preserve, sign, and turn into an 
educational component. So the public's experience of Harris 
Neck will be greatly enhanced.
    Ms. Hanabusa. Thank you, Mr. Kelly. Our time is up.
    Thank you, Mr. Chair.
    Dr. Fleming. I thank the gentlelady.
    And, Mr. Kingston, you have 5 minutes.
    Mr. Kingston. Thank you, Mr. Chairman.
    Reverend Thorpe, I wanted to ask you about your 
grandparents, Amelia and Robert Dawley. Were they college-
educated? Were they educated people?
    Rev. Thorpe. No, sir.
    Mr. Kingston. What was their educational level, to your 
knowledge?
    Rev. Thorpe. My grandfather, Robert Dawley, had a 5th-grade 
education.
    Mr. Kingston. Is that typical of the Harris Neck residents 
in the 1940s?
    Rev. Thorpe. That is right.
    Mr. Kingston. So you would say we could assume there were 
no lawyers.
    Rev. Thorpe. No lawyers.
    Mr. Kingston. No college graduates.
    Rev. Thorpe. Right.
    Mr. Kingston. Anybody who attended college?
    Rev. Thorpe. No.
    Mr. Kingston. Anybody who graduated from high school?
    Rev. Thorpe. No.
    Mr. Kingston. Not certain, maybe.
    Rev. Thorpe. Not certain.
    Mr. Kingston. So Mr. Banks comes down from Washington, 
D.C., gives them 2 weeks to move out?
    Rev. Thorpe. Yes.
    Mr. Kingston. And basically says they are gone.
    Rev. Thorpe. Gone, yes.
    Mr. Kingston. Do you happen to know if the City of Clyde or 
Taylor's Creek--and, Mr. Chairman and Members, Clyde and 
Taylor's Creek were cities that were dismantled for the 
construction of Fort Stewart, leaving only their cemeteries.
    Do you know if Clyde and Taylor's Creek had been dismantled 
by then?
    Rev. Thorpe. No, I don't know.
    Mr. Kingston. I actually think that they had. And it would 
stand to reason that there would be a precedent for, you know, 
the folks at Harris Neck to say, ``Well, we don't have any 
choice.'' But if they were against it, where would they turn 
to? Who was running the county at that time, for example?
    Rev. Thorpe. Tom Poppell.
    Mr. Kingston. And if they had turned to him, would he have 
been sympathetic to them, in your opinion?
    Rev. Thorpe. Well, I guess yes and no.
    Could I bring this in? Could I bring this in?
    Mr. Kingston. Sure.
    Rev. Thorpe. You see, the same person who sold us that 
property, Irvin Davis, in 1947 he called for a meeting at the 
First AB Harris Neck Baptist Church. He brought along with him 
his lawyer. And we met at the church, 1947, and his lawyer was 
the spokesman. And his lawyer got up and said, ``Now, Harris 
Neck, the government has not--are not going to release Harris 
Neck to you as of this time. But we are here to ask if you 
would allow Mr. Davis to have it for a cow pasture until that 
time.'' Everybody knowing Mr. Davis as a good man, we didn't 
know it was a trick. Everybody said, yes, let Mr. Davis have 
it. And that is what happened.
    We didn't know the land had been ordered returned to the 
county to give to the--they promised to give it back to us.
    Mr. Kingston. Ms. Bambach, I think it is important for 
you--well, maybe on a personal basis--you are not from that 
area, correct? You moved in 1999?
    Ms. Bambach. That is correct.
    Mr. Kingston. And so, just kind of as a scene setter, I 
wanted to make sure that you and the Friends sort of understood 
that this was a group of people who really weren't able to 
defend themselves. And when Washington comes down and says, 
``They need your land,'' it is taken from them.
    And the reason why I want to address this to you is you 
have a little more flexibility in what you say than Ms. Dohner 
does. But I think it is very important for us to look at the 
cultural, historic perspective of African Americans not getting 
equal justice in the court system and the political 
infrastructure.
    Switching back to Mr. Thorpe, do you know if they voted or 
not in the 1940s? Were they organized in terms of voting?
    Rev. Thorpe. No, we weren't really organized. And we didn't 
have a voice no way.
    Mr. Kingston. Did they vote at all, do you know?
    Rev. Thorpe. No. And we didn't have no kind of voice, and 
we couldn't have had no question, we couldn't ask no question. 
It was just, yes, sir, no, sir.
    Mr. Kingston. And, Ms. Bambach, the reason why this is an 
important issue to us in Congress--and I want also you and the 
Friends organization to know, this is the political equivalent 
of me walking in a gasoline factory smoking a cigarette. It is 
a lose-lose in terms of the politics of this stuff. I 
understand two highly energized groups are in conflict here.
    But, as Americans, we can be united on the central question 
of fair compensation. And if the compensation was fair at that 
time, that is what we need to know. And people might not like 
that answer, one side or the other, but, to me, that is the 
empirical question.
    And that is why, you know, I really want to get that 
information from Fish and Wildlife so that we know and we can 
proceed accordingly.
    Ms. Bambach. I absolutely agree, Representative Kingston.
    I would also like to see it parsed a little bit differently 
than the data was previously analyzed in the GAO report. 
Because what they used is, they went over all the individual 
properties and they gave us the average pay to whites and pay 
to the Harris Neck community.
    By the way, white landowners owned more than 50 percent of 
that property. And I don't believe that they all had a 5th-
grade education. So there were people there who, if they had 
wanted to protest it, could.
    But the price--my understanding, and I have not seen the 
original data, but my understanding is that when you have what 
are called outliers in your data set, some that are way higher 
than most and some that are way lower, an average does not give 
you good statistical predictive power. What you should be using 
is median, mode, and range. And GAO did not do that. And I 
would love to see that done, because I think it is going to 
show--even the Olympic diving champions throw out the highest 
and lowest score before they do an average. That is an 
imperfect solution to the problem. But, statistically, we 
should be doing a better job in analyzing this.
    Mr. Kingston. And I agree with you, because, also, the 
higher land probably got a better compensation rate than lower 
land. I am guessing. I don't know.
    Ms. Bambach. That is correct. The Livingston-Lorillard 
estate was 225 acres. It occupied most of the high ground and 
had the deepwater access, abutted the emergency airfield that 
was already there. And it definitely did get more than anybody 
else. And, also, it had a 28-room mansion with an in-ground 
swimming pool that was utilized by the military during the war.
    But, nonetheless, I absolutely agree that the members 
represented by the Land Trust suffered terrible misfortune 
during the war. The question for me is, were they unique? I 
think you will find many, many thousands of other families 
around the country that were asked to make similar sacrifices 
and half a million that made the ultimate sacrifice. We were at 
war, and things were sort of done in a hurry.
    Dr. Fleming. OK. I have a follow-up question, and I will 
invite the other panel members if they have a wrap-up question 
as well. Because this is an important follow-up to the line of 
questioning that Mr. Kingston had.
    Is it your understanding that the--first of all, my 
understanding is that--and I think you alluded to this 
briefly--is that the compensation to the white landowners was 
significantly higher than that to the black owners, or there 
was some differential there.
    Mr. Kelly? Either one.
    Mr. Kelly. I am sorry. I thought you were directing it to 
her. What was the question?
    Dr. Fleming. Well, the question was--and, again, just a 
``yes'' or ``no'' is fine. My understanding is the white 
owners--and this is going to lead up to another question that 
is even more important--the white owners, all things being 
equal, received a higher compensation than the black owners 
did.
    Mr. Kelly. Yes. And to remind you also, they had only Lilly 
Livingston and Nellie Clapp, who died in the 1930s, had any 
improvements. The rest of the landowners--Ian Thorpe--and Ms. 
Bambach was right--he did turn out to be the largest landowner 
in the county, most of it acquired by hook or crook. But none 
of the other families even had a chicken coop on the land--no 
housing, nothing. They just had property. Every family had all 
that you can imagine to have a successful community. So, you 
know, that even further----
    Dr. Fleming. Right. Underscores.
    Mr. Kelly. Yeah.
    Dr. Fleming. What I think you are saying is that, if 
anything, some, if not all, of the black owners had more 
improvements on their land, therefore a higher value on the 
land, than whites did, but yet it was a reversal in pay.
    What I have here is the uniform appraisal standards for 
Federal land acquisitions. Quite thick, as you can see. And it 
calls for the fact that whenever there is compensation for 
condemnation that you had to go far beyond just the land 
itself--the improvements, business. We heard testimony that 
there were business enterprises that were functioning, having 
to do with farming as well as food processing and so forth.
    Is it my understanding that none of that--and, again, I 
would like for Ms. Bambach, as well as Mr. Kelly, to respond to 
this. Is my understanding correct that there was no 
compensation for any of those factors?
    Mr. Kelly. You are absolutely correct. Reverend Timmons, 
who is the pastor of the church now, his grandfather ran a 
seafood factory that employed Evelyn Greer's mother and 49 
other women. No compensation for that or for any other 
business.
    Dr. Fleming. Ms. Bambach, would you like to respond?
    Ms. Bambach. I was just looking for my copy of the GAO 
report, which shows that some white landowners, Mrs. Livingston 
in particular, who owned the estate, received more than some 
black owners, but some black owners received more than some 
white owners.
    So it is not like everything got appraised and then they 
said, ``All right, now we will add on a 40 percent margin if 
you are white.'' That is not what happened, and the statistics 
will bear me out on that.
    Also, the prices that were paid were set. And the reference 
here is the GAO report. They were set by the Circuit Court.
    Ms. Dohner. Right.
    Ms. Bambach. And the Circuit Court said that it considered 
the improvements as well as the value of the land. Now, we 
don't have the data that those courts used, so all I have to go 
on is their statement.
    Dr. Fleming. Well, let me be clear on this. So you are 
saying that Mr. Kelly's assertion is incorrect and, in fact, 
that there was no differential based on race and that, in fact, 
improvements were considered and were compensated for.
    Ms. Bambach. I am saying that the court that made the 
prices made that statement. I can't say what was on their mind. 
But they said that is what they did in 1948. And it was the 
Circuit Court that did that. And I am saying----
    Dr. Fleming. Mr. Kelly, can you clarify that?
    Ms. Bambach. In terms of the differential, what I am saying 
is that there are other explanations.
    Dr. Fleming. OK.
    Ms. Bambach. And, you know, I haven't done a regression 
analysis on this, but things like location and amenities, 
locational amenities, could have been a factor.
    Dr. Fleming. Right.
    Do you have any rebuttal to that?
    Mr. Kelly. I don't know about that Circuit Court decision, 
but, you know, we stand by what we have already said and that 
we know to be true.
    Dr. Fleming. Sure.
    Oh, Ms. Dohner, do you have a comment?
    Ms. Dohner. Sir, I would just like to add one thing. That 
information is in the report. We will make sure everyone that 
has been at this hearing gets that information.
    You also have to look at--Congressman Kingston talked about 
the Fort Stewart area. And they also looked at the differences 
between what was paid for those people, and there was also a 
difference in that. And, again, it is based on not only what is 
on the lands but the overall land, like Ms. Bambach said, about 
the deepwater docks and things like that, the coastal area.
    Mr. Kelly. If you read after page 4 of the GAO report, page 
4 has the average price paid per acre. If you read the rest of 
that report closely, you will see that it makes very little 
sense. When they compare what happened in Fort Stewart to what 
happened in Harris Neck, read it closely and you will see that 
they are comparing apples to oranges.
    Dr. Fleming. Yeah. I have this in my hand. It says that the 
average for black owners was $29,653; white, $57,153. Again, by 
itself, that doesn't prove anything, but certainly that is a 
disturbing number and a disturbing trend.
    And, also--and this is one of the problems we have in this, 
is making judgments based on information--it also says, GAO 
report, page 4, ``As a result of the absence of land and 
property tax assessment records, we were unable to evaluate: 
one, the acquisition payments to the former Harris Neck 
landowners for their land, including improvements; and, two, 
whether there was racial discrimination in determining this 
compensation.''
    So the GAO still leaves it as a significant possibility 
that that did happen. So I don't--and that was after the court 
case. So I don't think the court case, certainly, is the end-
all or the final answer.
    And, with that, I am going to open to the panel. Do either 
one of our other Members have any follow-up questions?
    OK, Ms. Hanabusa?
    Ms. Hanabusa. Mr. Kelly, something that I have been curious 
about, when you gave me the two dates on when, basically, the 
Harris Neck Land Trust was created, 2005-2006. Now, why such a 
long period of time? Why 2005-2006 before the Trust is actually 
created?
    Mr. Kelly. There was a strong movement starting in the mid 
to late 1970s. The reason that nothing happened after the war 
is you are talking about a different culture in Reverend 
Thorpe's generation--the acceptance, the patriotism, the lack 
of a formal education. So when Wilson and Reverend Timmons and 
Chester Dunham's generation came up, that is when the first 
movement started.
    And it was basically a legal avenue that was approached. 
However, there was a bill that they tried to get at the time, 
through Representative Bo Ginn. And the effort then died in the 
very early 1980s even though the ``60 Minutes'' piece on Harris 
Neck came out in 1983.
    So for, you know--if the Committee puts itself in a similar 
position, it is about people putting a lot of effort, blood, 
sweat, and tears into a movement after their land was taken 
already from their parents and having the result that occurred 
in 1979 and in 1980.
    And then, fortunately, or unfortunately, I heard the story 
on National Public Radio when I was working in California in 
2007, and that is when my involvement started. And Reverend 
Timmons, Wilson Moran, and myself had a meeting that led to 
many more meetings, that led to the formation of the Trust. So 
I guess it is an answer of a couple of evolutions through the 
time.
    Ms. Hanabusa. I thought you said the Trust was formed in 
2005-2006.
    Mr. Kelly. The Trust was formed in 2006. The movement 
actually began in 2005, but the legal Trust was formed in 2006.
    Ms. Hanabusa. But you said you heard about it in 2007?
    Mr. Kelly. Yes. I am a slow learner. I heard about it in 
2007 and came to Harris Neck to hang out with Wilson. And I 
ended up going back to California and giving my notice at work 
and moved there, got involved in the community, and one thing 
led to another. But I am a slow learner.
    Ms. Hanabusa. So I guess the question is, what caused the 
movement before you got there, then? Does somebody want to 
answer that? I mean, you have this gap from 1980 to 2005-2006. 
So what happened that triggered 2005-2006?
    Anyone?
    Mr. Moran. Well, I think we need to go back to 1979, 
Vietnam. We had just got out from Vietnam. And a lot of the men 
came home, and they saw that we were living on the side of 
Harris Neck Road on one acre of land per family, and they 
wanted to go and try to get this 2,687 acres of land.
    And Reverend Timmons put it like this. He said, ``Well, we 
fought for freedom for the Vietnamese. We need to fight for 
freedom for us.'' And that is how it started.
    Ms. Hanabusa. I see.
    Thank you. Thank you very much.
    Thank you, Mr. Chair. I yield back.
    Oh, I am sorry. Please.
    Mrs. Greer. I would just like--I am Evelyn Greer.
    Ms. Hanabusa. Right.
    Mrs. Greer. I would like to clear up some things on the 
first movement. I was the Secretary of the first movement. And 
we were going very good, that first movement, but we ran into 
financial problems. And we had went to Washington, we went to 
Atlanta several times. Bo Ginn was in then. But we just 
couldn't get no financial help. And that is why, at that point, 
it kind of went away. You know, it didn't completely die, but 
we just didn't have the finances, you know, to do what we 
wanted and desired to do. So it died down for a while. And that 
is when Wilson and them came along and picked it back up. But 
there are so many catches in it.
    Now, we was fighting, too, because we felt like it wasn't 
right for the government to take the money that they have 
written out to pay us and give it to individuals to give to us 
when we were corresponding back and forth with them. This is 
me; I am telling what I know.
    Ms. Hanabusa. OK.
    Mrs. Greer. And that is one reason we were fighting, too, 
because they didn't, you know, recognize us. They took it from 
us, but they gave the money to other individuals to pay us, 
and, matter of fact, called E.M. Thorpe.
    Dr. Fleming. OK.
    Ms. Hanabusa. Thank you, Ms. Greer.
    Dr. Fleming. Your time is up.
    And I will recognize Mr. Kingston, the gentleman from 
Georgia, if you have any further questions.
    Mr. Kingston. No. Mr. Chairman, let me just thank you for 
having this hearing and for your commitment to try to sort 
through this.
    And as you can tell, this is a class of two enormously 
important values: justice being number one, and then you have 
the Gullah-Geechee corridor. And we will teach you a little--I 
know we can swap some Cajun for Gullah-Geechee. But, you know, 
this is something that Mr. Clyburn and I actually did a bill on 
about 3 years ago, recognizing the Gullah-Geechee corridor and 
the historical importance of it. And, certainly, at the same 
time, we understand the environmental significance of this 
area. So we have a lot of our, you know, top values clashing.
    And it is my hope that we can stay engaged and try to come 
up with, well, what really did happen in the 1940s and then 
where do we go from there. And so I appreciate the panelists 
and what they have said today, and, again, the Committee. So 
let's stay engaged, and let's get to the bottom of this.
    Thank you.
    Dr. Fleming. Yes. Well, I thank the gentleman.
    And I thank the panel today. We learned a tremendous amount 
of information about what is really a very complex issue and 
one that is, as my good friend points out, it is a clash of 
values. We always want to do the right thing, but that is not 
always as easy as it may seem. And I think everyone here is 
very earnest and sincere in their feelings and beliefs and 
understandings.
    So, with that, I am going to excuse the panel and then ask 
the last panel to come forward so we can finish up our hearing.
    Well, I want to thank our third panel for the day for what 
has been a very interesting hearing on various subjects.
    And so I want to welcome Dr. Holly Bamford, Deputy 
Assistant Administrator for Ocean Services and Coastal Zone 
Management, National Oceanic and Atmospheric Administration; 
and Dr. Paul Gilman, Senior Vice President and Chief 
Sustainability Officer, Covanta Energy Corporation.
    Like all witnesses, your written testimony will appear in 
full in the hearing record. So I ask that you keep your oral 
statements to 5 minutes, as outlined in the invitation letter 
and Committee Rule 4(a).
    Our microphones are not automatic, so try to remember to 
punch the button. I forget half the time myself. Also, the 
timing lights, I think you have probably seen that by now. Four 
minutes green, 1 minute yellow, and then when it turns red, we 
want you to wrap up.
    Dr. Bamford, I believe you are up first, and I will 
recognize you for 5 minutes.

      STATEMENT OF HOLLY BAMFORD, PH.D., DEPUTY ASSISTANT 
 ADMINISTRATOR FOR OCEAN SERVICES AND COASTAL ZONE MANAGEMENT, 
        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Bamford. Thank you very much.
    Chairman Fleming, members of the Subcommittee, thank you 
for the opportunity to testify on the Marine Debris 
Reauthorization Act and S. 363. I am the Deputy Assistant 
Administrator for the National Ocean Service, but previous to 
that position, I was the Director of the NOAA Marine Debris 
Program. So I am very happy to provide you some of my 
experiences as well as how this reauthorization can help NOAA 
do its job better.
    The Reauthorization Amendment of 2011 provides a clear 
guidance to NOAA to comprehensively address the impacts of 
various types of debris on a national, regional, and 
international scale. The amendment gives NOAA the ability to 
improve and better coordinate our current efforts, as well as 
advance our ability to understand and address many of the 
impacts marine debris has on our environment.
    Let me give you some examples from around the country. I 
would like to first start in the Pacific Northwest, where 
fishing and crabbing industries are the lifeblood of the 
region.
    Fishermen in Washington and Oregon catch millions of pounds 
of Dungeness crab, salmon, and other commercial fisheries every 
year, boosting the local economy with jobs and commerce. But 
this robust industry does not come without costs. Lost fishing 
nets observed in coastal waters in Puget Sound indiscriminately 
tangle and kill countless marine mammals, seabirds, fish, and 
invertebrates. Crab pots can sometimes weigh more than 100 
pounds, scouring some other sensitive fisheries habitat.
    Dr. Bamford. These abandoned nets and pots must be removed 
in order to protect the resources.
    NOAA's regional marine debris coordinators are instrumental 
in overseeing removal and assessment projects of derelict 
fishing gear and nets. Just recently, NOAA's West Coast 
coordinator oversaw a NOAA-supported project with the Oregon 
fishing industry which resulted in nearly 3,000 derelict pots 
removed from Oregon waters.
    Similar efforts are taking place across the country, here 
in the Chesapeake Bay, where nearly 20 percent of the deployed 
pots are actually lost annually. There, NOAA and the Virginia 
Institute of Marine Science partnered to study the impacts of 
lost traps. Of the 28,000 derelict blue crab traps that were 
removed during the study, 27,000 contained targeted species, 
including blue crabs, that could have been harvested for 
profit.
    The reauthorization amendment specifically calls out for 
NOAA to undertake national and regional coordination to assist 
States, tribes, and organizations in addressing marine debris 
issues that are important to these areas. This will allow the 
NOAA coordinators to serve as an expert resource in support of 
local efforts more efficiently and effectively to address 
marine debris issues on a national scale. In short, the 
reauthorization helps us do our job better in support of the 
States.
    Now let's go to the Pacific Islands, which are home to some 
of the Nation's most prestigious natural resources. Hawaii has 
world-class beaches, incredibly unique ecosystems, and marine 
animals found nowhere else on Earth. Marine debris is also a 
consistent problem for Hawaii. Garbage of all shapes and sizes 
and materials wash up on Hawaii's beaches and reefs every day. 
This is due to the local high-concentration debris zone where 
Hawaii sits in the Pacific.
    Marine mammals, including the endangered monk seal, often 
eat debris like plastic or get entangled in it, which can lead 
to death. Countless birds and marine mammals have been found 
with plastic in their stomachs or wrapped around their bodies. 
While it is not always conclusive that the plastic was the 
primary cause of death, it certainly didn't help them survive.
    In addition to derelict fishing gear, the reauthorization 
allows NOAA to prioritize research on plastics and other types 
of debris, including storm-generated debris. This is most 
timely, as the debris that has swept into the ocean by the 
tsunami in Japan last March could reach the United States over 
the next few years. NOAA is currently working with our other 
agencies, as well as the States, to assess the probability and 
plan for the best- and worst-case scenarios due to this event. 
The amendment calls on NOAA to undertake these types of 
assessments, with a focus on marine debris that poses a threat 
to marine environment, navigational safety, and the economy.
    Next, let's head to the Gulf, a region that has been 
gravely impacted by natural disasters.
    When Hurricane Katrina swept through in 2005, it destroyed 
marine infrastructure on a wide scale, depositing enormous 
amounts of debris in the water both on- and offshore. Following 
the storm, NOAA worked with the Coast Guard and the Army Corps 
of Engineers to survey and clear debris from major national 
waterways, as mandated by existing laws. But near-shore areas 
outside the navigational waterways were not mandated to be 
cleared, yet these areas contain large amounts of debris, which 
cause a threat to boaters and the fishing industry.
    To help restore the area's fishing grounds and mitigate 
risks to public safety, Congress authorized supplemental 
funding to NOAA to address these areas and survey the near-
shore waters along Alabama, Mississippi, and Louisiana. The 
reauthorization bill directs the Department to develop 
products, like the Katrina debris mapping tool we developed 
from those authorization funds, to help the public better use 
best practices and technology to address this impact.
    The NOAA Marine Debris Program is working extensively on 
these marine debris issues in the Pacific Islands, Alaska, U.S. 
territories, Great Lakes, East/West Coast, and the Gulf Coast. 
Reauthorization will allow NOAA to comprehensively address the 
issues associated with marine debris on a local, regional, and 
national scale.
    Before I end, I would like to also take a moment to discuss 
S. 363, a bill that will allow the Secretary to convey property 
of NOAA to the City of Pascagoula, Mississippi.
    Many years ago, for security purposes NOAA fenced off three 
small sections of land adjacent to Pascagoula Laboratory. 
However, that land is owned by the City of Pascagoula. In 
recent years, the city has begun to develop the local 
waterfronts in their plan for a small park on a separate piece 
of land currently owned by NOAA. The city is willing to swap 
the parcels and other contiguous space around in use by NOAA 
for the adjacent piece of government land.
    The proposed exchange would allow for the government to----
    Dr. Fleming. I am sorry, your 5 minutes is well up, and 
your testimony will appear in full in the record.
    [The prepared statement of Dr. Bamford follows:]

  Statement of Dr. Holly Bamford, Deputy Assistant Administrator for 
   Ocean Services and Coastal Zone Management, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

Introduction
    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to testify on H.R. 1171, the Marine Debris Act 
Reauthorization Amendments of 2011. My name is Holly Bamford, Deputy 
Assistant Administrator for the National Ocean Service at the National 
Oceanic and Atmospheric Administration (NOAA) within the Department of 
Commerce. Previous to my current position, I served as the Division 
Chief and Director of the NOAA Marine Debris Program and was involved 
in its inception in 2005 and formal codification in 2006. I look 
forward to contributing my experience on the marine debris issue to 
today's hearing.
    NOAA supports undertaking the activities detailed in the 
reauthorization language, which will codify efforts already underway 
within the NOAA Marine Debris Program and allow continued growth and 
progress in addressing the impacts of marine debris. Marine Debris is 
currently defined for the purpose of the Marine Debris Research, 
Prevention, and Reduction Act as, ``any persistent solid material that 
is manufactured or processed and directly or indirectly, intentionally 
or unintentionally, disposed of or abandoned into the marine 
environment or the Great Lakes.'' NOAA wrote this definition 
cooperatively with the U.S. Coast Guard (USCG) as directed by the 
original Marine Debris Research, Prevention, and Reduction Act.
    As the lead federal agency addressing marine debris and Chair of 
the Interagency Marine Debris Coordinating Committee, NOAA continually 
works in partnership across federal agencies to ensure coordination in 
its national and international marine debris efforts, within existing 
bodies such as the Interagency Committee, and through the National 
Ocean Policy.
Marine Debris Impacts
    Marine debris, which can be anything from lost or abandoned fishing 
gear and vessels, to plastics of any size, to glass, metal, and rubber, 
is an on-going international problem that impacts our natural 
resources. In addition to being an eyesore, it can threaten oceans, 
coasts, wildlife, human health, safety, and navigation. Every year, 
unknown numbers of marine animals are injured or die because of 
entanglement in or ingestion of marine debris. It can scour, break, 
smother, or otherwise damage important marine habitat, such as coral 
reefs. Many of these habitats serve as the basis of marine ecosystems 
and are critical to the survival of many important species. Derelict 
fishing gear can also cost fishermen untold economic losses. For 
example, crab pots and nets can continue to capture fish--something we 
refer to as ``ghost fishing''--for years after they're lost or 
abandoned, depleting fisheries and reducing abundance and reproductive 
capacity of the stock. In addition to the ecosystem impacts, coastal 
communities spend millions of dollars annually trying to prevent debris 
from washing up on their shorelines and trying to remove it once it 
does wash up. It not only degrades our coasts' natural beauty, but it 
threatens the safety of those who work and play there.
    Marine debris can also present a navigation hazard to vessels of 
any type. Ropes, plastics, derelict fishing gear, and other objects can 
get entangled in boat propellers and cause operational problems and 
large items such as lost containers can actually be collision dangers. 
Plastic bags can clog and block water intakes and are a common cause of 
burned-out water pumps in recreational crafts. Such incidents involve 
costly engine repairs and disablement. These dangerous and costly 
impacts are problems for both the recreational and commercial boating 
and shipping communities, and NOAA's Marine Debris Program is actively 
seeking partnerships within these communities to expand our area of 
knowledge and begin to proactively address the dangers.
    These impacts to navigation and the economy are being investigated 
in a study conducted by the Marine Debris Program and the Hawaii 
longline fishing community since 2007. The study, utilizing the NOAA 
National Marine Fisheries Service Observer Program in Hawaii to gain 
better understanding of the overall impacts of derelict fishing gear to 
the Hawaii-based longline fishing industry, has produced some 
interesting results. During 125 separate vessel trips, observer vessels 
encountered over 34,000 pounds of marine debris, with an average of 287 
pounds per encounter.
    Abandoned and derelict vessels are another type of marine debris 
posing a threat to marine resources and navigational safety in U.S. 
waters. Because older or inoperable vessels are expensive to remove and 
become even more costly the longer they are left in place, owners 
sometimes leave such vessels on the shoreline or sunk close to shore 
after removing identifying numbers. With the economic downturn, many 
states are finding abandoned vessels to be a serious marine debris 
problem.
    In addition to improving navigation safety, removal of marine 
debris eliminates the risks of entanglement and trapping of marine 
species, reduces risks to human health, and promotes vital marine 
habitat recovery.
Marine Debris and Natural Disasters
    Coastal storms and natural disasters are another source of marine 
debris creating hazards on our inland and coastal waters.
    For example, there is a chance that debris swept into the ocean by 
the tragic tsunami that struck Japan last March could reach the United 
States over the next few years. In addition to the incredible human 
tragedy of the earthquake and tsunami, part of its aftermath has become 
a marine debris issue that could directly impact our coasts.
    NOAA has been working with partners to coordinate efforts to 
understand the nature and amount of items that may reach the United 
States. Our activities have included working with vessels in the North 
Pacific to report significant debris sightings, collecting scientific 
data, and predicting debris movement at sea with computer models. At 
this point there is not an accurate estimate of the number and type of 
items that will reach the United States given the uncertainty and 
unprecedented scale of this situation.
    We have also been hard at work preparing an assessment and response 
framework that will facilitate holistic and cooperative action planning 
for potential threats posed by the debris. Moving forward, the 
activities outlined in the framework will be executed and coordinated 
by the Interagency Marine Debris Coordinating Committee, so that NOAA 
can leverage resources and expertise from across the federal 
government.
    In another example, during the 2005 hurricane season, Hurricanes 
Katrina and Rita inflicted severe damage on the Gulf of Mexico coastal 
region, and deposited extensive amounts of debris over various areas of 
the Gulf coast. Immediately following the storms, NOAA's Navigation 
Response Teams worked with the USCG, the U.S. Army Corps of Engineers, 
and other state and private sector partners to quickly survey and clear 
marine debris from shipping channels vital to the response and recovery 
effort. In addition, the amount of storm-generated marine debris 
outside the navigation channels was huge, posing a threat to safe 
vessel movement throughout Gulf coastal waters. Recognizing this, 
Congress provided Fiscal Year 2006 and 2007 supplemental funds to NOAA 
and USCG to survey and remove debris that posed a hazard to safe 
navigation and commerce in the coastal areas of Alabama, Louisiana, and 
Mississippi.
    NOAA responded by surveying and mapping over 1,570 square nautical 
miles along all state waters of Alabama, Mississippi, and Louisiana. 
Over 7,000 marine debris hazards were identified and plotted on marine 
debris maps. This information was provided to USCG, the Federal 
Emergency Management Agency, and the States in order to assist with 
cleanup and outreach efforts.
NOAA Marine Debris Program in 2011
    I would like to also highlight some of the recent accomplishments 
of the NOAA Marine Debris Program and how these efforts relate to the 
new program components in the Marine Debris Act Reauthorization 
Amendments of 2011.
NOAA leads international collaboration
    In March 2011, the NOAA Marine Debris Program hosted the Fifth 
International Marine Debris Conference in Hawaii, the first 
international marine debris conference held in over 10 years in Hawaii. 
Over 450 people from more than 30 countries attended, generating a new 
excitement to work together, combine knowledge and resources, and 
collaborate to comprehensively address marine debris. The major outcome 
of this conference was the Honolulu Strategy. This Strategy will be a 
major step forward for the international marine debris community, 
providing common terminology, outlining consistent ways of referring to 
goals and objectives, and establishing a mechanism for cooperative 
efforts. It also provides a comprehensive overview of the marine debris 
issue, sources, potential impacts, and prevention and reduction 
methods, so that any new efforts build on existing efforts to further 
evaluate the overall problem. This Strategy has been drafted under the 
guidance of NOAA and the United Nations Environment Programme, with 
input from the conference participants and other interested parties.
Partnerships to Address Marine Debris
    Working with non-governmental organizations, academia, regional 
organizations, local, state and federal governments, and international 
organizations is a priority for the NOAA Marine Debris Program. NOAA's 
marine debris regional coordinators extensively cover marine debris 
issues in the Pacific Islands, West Coast, Alaska, Great Lakes, East 
Coast, and Gulf of Mexico. While these coordinators focus on the local, 
state, and regional issues as a part of the national program, they are 
also able to bring in lessons learned and make connections across the 
country and the world. NOAA has held lead roles in developing marine 
debris plans for Hawaii and the West Coast Governors Agreement, planned 
multiple workshops for New England, the Great Lakes, Alaska, and 
Hawaii, and worked on specific projects throughout all regions. NOAA 
continues to work with partners throughout the country to develop and 
test innovative and cost-effective methods of detection and removal of 
marine debris, and to engage the public and industry, including 
shippers and fishermen, and the recreational community on marine 
debris.
    One shining example of such a strategic partnership is the Fishing 
for Energy program. Launched in 2008 through a partnership among 
Covanta Energy Corporation, the National Fish and Wildlife Foundation, 
NOAA, and Schnitzer Steel Industries, Inc., the partnership works 
closely with state and local agencies, community and fishing groups, 
and local ports to install bins at convenient and strategic locations 
into which fishermen can deposit fishing gear. When these bins fill up, 
the gear is collected and transported to a nearby Schnitzer Steel 
facility where the metal (e.g., crab pots, gear rigging) is pulled for 
recycling, and rope or nets are sheared for easier disposal. Then the 
waste is brought to the nearest Covanta Energy-from-Waste facility, 
where the gear is converted into clean, renewable electricity for local 
communities. This partnership is designed to give fishermen a place to 
dispose of derelict gear they come across while on the water, and ease 
the burden of high costs associated with disposing of old fishing gear 
into landfills. The program also began providing grant awards for 
community groups to proactively remove derelict fishing gear in 2009. 
These investments, which are estimated to remove over 92 tons in the 
first year, provide the fishing community with a means to become more 
actively involved in addressing marine debris issues. Since 2008, 500 
tons of gear has been collected through the Fishing for Energy program 
at 24 ports across the country.
    Another example of a highly successful partnership is the NOAA 
Marine Debris Program's ongoing work with the University of Georgia. 
Under this partnership, NOAA has partnered with the Southeast Marine 
Debris Initiative (SEA-MDI), a consortium of marine debris stakeholders 
and decision makers from across Georgia, North Carolina, and South 
Carolina, to develop tools for the public and share best practices and 
resources to address the impacts of marine debris off the Atlantic 
coast. The SEA-MDI partnership launched the first tool developed for a 
wide audience, the Marine Debris Tracker, in March 2011. This tool is a 
smartphone application that allows anyone to track marine debris 
worldwide and then post the locations to an online map and database.
    In addition to new partners, NOAA continues to collaborate with 
long-time NOAA partners in new ways. For example, the Ocean Conservancy 
and NOAA are in the early phases of developing online resources to 
educate a larger audience on marine debris and its impacts. 
Additionally, NOAA has supported the Alice Ferguson Foundation's (AFF) 
annual Trash Summit, which brings together local components that are 
needed to prevent marine debris, including local lawmakers, enforcement 
officers, non-governmental organizations, and companies.
Regional marine debris efforts
    Since its inception in 2005, the NOAA Marine Debris Program has 
been actively involved in marine debris abatement projects on the East 
and West Coasts, Hawaii, Alaska, and the Gulf Coast and Great Lakes 
regions.
    For example, in the State of Alaska, the NOAA Marine Debris Program 
has been working to remove debris accumulations, research the impact of 
marine debris, and conduct outreach to prevent the introduction of new 
debris. The vast and diverse nature of the Alaskan shoreline, combined 
with the frequent high density of debris has led to the development and 
adaptation of innovative and specialized approaches to these goals in 
executing projects.
    In Prince William Sound, NOAA has partnered with the Gulf of Alaska 
Keeper Foundation to remove debris from remote shorelines both inside 
the Sound and on the outer coast in order to prevent the re-
mobilization of debris that can threaten marine species through 
entanglement and ingestion and help to restore valuable coastal 
habitat. In many areas, this removal has been paired with annual 
returns to the same beaches to monitor how much and how quickly debris 
accumulates. At Gore Point, an outer coast beach where currents and 
storms aggregate debris, over 20 tons of debris was cleaned from less 
than a mile of shoreline during an initial cleanup in 2007. Since then, 
high accumulation rates of debris have been observed, underscoring the 
need for continued vigilance.
    In Washington State, the NOAA Marine Debris Program has supported 
the Northwest Straits Marine Conservation Initiative in its effort to 
survey for, assess the impact of, and remove derelict fishing gear in 
Puget Sound, resulting in the removal of thousands of derelict fishing 
nets and crab pots. Similarly, in 2007 NOAA supported the Stilaguamish 
Tribe of Indians in surveying for crab pots using side scan sonar, and 
removing derelict crab pots deeper than the reach of divers with a 
remotely operated vehicle.
    The NOAA Marine Debris Program is also partnering with the 
University of Washington-Tacoma to investigate the sources, prevalence 
and impacts of microplastics, an emerging marine debris challenge. Two 
workshops held in Tacoma in 2008 and 2010 brought together leading 
international scientists in diverse fields ranging from physical 
oceanography and ecology to emergency response and chemistry in an 
unprecedented international and coordinated focus on the microplastics 
issue.
Derelict fishing gear
    Derelict traps have the potential to move across the seafloor and 
cause abrasion and breakage of structural habitat. The NOAA Marine 
Debris Program is planning to publish research results from projects 
funded over the past five years to study the impacts of derelict 
fishing gear used for crab, lobster, and fish in different parts of the 
country. These research results will provide statistics for fishery 
managers to understand and address, if necessary, the impacts of lost 
pots and traps to their resources. One such example comes from a joint 
NOAA-Virginia Institute of Marine Science study to assess impacts on 
the Virginia portion of the Chesapeake Bay, where the Governor of 
Virginia created a marine debris removal program in the Virginia Blue 
Crab Fishery Resource Disaster Relief Plan. Out-of-work fishermen were 
hired to recover lost and abandoned crab pots. In the winters of 2008, 
2009, and 2010, the fishermen removed over 28,000 derelict crab pots 
which contained more than 27,000 crabs, fish, and other animals. It is 
estimated that approximately 1.4 million market-sized crabs would have 
been lost to these derelict pots, negatively impacting this coastal 
economy.
    Additional derelict fishing gear research across the U.S. includes 
investigation of habitat recovery time after nets and crab pots are 
removed (about a year), the time it takes for bird species caught in 
nets to decay and be consumed (about 10 days), and the cost-benefit 
analysis of removing derelict crab pots. The conclusion from this 
research is that it makes economic sense to remove derelict pots.
Tools to Aid the Marine Debris Community
    To be responsive to the needs of marine debris practitioners, NOAA 
is developing tools to aid in the dissemination of information and best 
practices on marine debris identification and removal. One such effort 
is the development of standardized, scientifically rigorous monitoring 
protocols for marine debris, which will be available for worldwide use. 
With limited resources available in the international marine debris 
community, the NOAA Marine Debris Program wants to reduce duplication 
of effort to make sure that all resources can be used to move forward 
to arrest and reverse the impacts of marine debris.
    Finally, a new tool that the marine debris community has requested 
is the NOAA Marine Debris Information Clearinghouse, as required by 
both the original Marine Debris Act and included in the Reauthorization 
Amendments Act of 2011. The Clearinghouse is the result of significant 
scoping to ensure the best product and resource prioritization to 
address current gaps in marine debris information as well as fill 
future needs. NOAA <Pa0-Char>gathered input through workshops and 
interviews with stakeholders throughout the marine debris community, 
including federal and state government partners and the many non-
governmental organizations active in the field. The Marine Debris 
Program then organized and translated these inputs into a set of 
specifications that synthesizes and prioritizes features in a cohesive 
design. To evaluate the accuracy and utility of the design, staff 
conducted follow-up interviews with representative users from each 
sector of the marine debris community. In parallel, NOAA staff worked 
to evaluate potential development partners, striving to balance the 
forward looking approach the design required with the cost-
effectiveness and stability that spatial data projects demand. </Pa0-
Char>When unveiled, the Clearinghouse will be a one-stop shop for 
marine debris practitioners to learn about current and ongoing 
projects, tools, products, and related marine debris-related 
publications. This site, targeted specifically to marine debris 
practitioners, will augment the existing NOAA Marine Debris Program 
public website for general audiences, which currently receives 
approximately 300,000 visits annually.
H.R. 1171
    NOAA supports undertaking the activities detailed in the Marine 
Debris Act Reauthorization Amendments of 2011. The bill will codify 
efforts already underway within the NOAA Marine Debris Program and 
allow continued growth and progress in addressing the impacts of marine 
debris. The reauthorization lists program components which closely 
parallel the primary effort areas of the Marine Debris Program, 
including investigation and assessment; prevention, reduction, and 
removal; interagency, regional, and national coordination; development 
of tools and products; and international cooperation.
    H.R. 1171 emphasizes the importance of education and outreach, two 
critical components of the NOAA Marine Debris Program. Reducing marine 
debris requires that boaters, fishermen, industry, academia, non-
governmental organizations, and the general public have the knowledge 
and training to change their behaviors.
    H.R. 1171 will also support priority objectives under the National 
Ocean Policy, including, Water Quality and Sustainable Practices on 
Land, to address marine debris and its impacts.
    One recommendation NOAA would make on H.R. 1171 is to revise the 
definition of marine debris to better align with the jointly developed 
NOAA-USCG definition now in regulation, per direction from the original 
Marine Debris Act.
S. 363
    S. 363 would allow for the Secretary of Commerce to convey property 
of NOAA to the City of Pascagoula, Mississippi. Many years ago, for 
security purposes, and without objection from the County, which was the 
owner of the land at the time, NOAA fenced off two small parcels of 
land plus a portion of a street outside of the Pascagoula facility. 
Over the years, NOAA's use of this property has evolved into storage 
and parking. The City of Pascagoula now owns this land. In addition, 
the City is interested in developing the local waterfront, and that 
concept would include a park on a separate piece of land currently 
owned by NOAA. The City is willing to ``swap'' the two small parcels 
already in use by NOAA as well as other contiguous space in exchange 
for the Government transferring a section of its land where the City 
would like to build the park. The exchange would be mutually 
beneficial. NOAA needs expansion space at or near its waterside 
operations to construct a boat and research sampling gear storage 
facility and could release the space desired by the City without 
disruption to NOAA's operations.
Conclusion
    Marine debris is a problem we can prevent. The NOAA Marine Debris 
Program will continue to pursue on-the-ground research, prevention, and 
reduction of marine debris nationwide. While the problem of marine 
debris has existed for decades, there is still much to learn as we work 
to address the impacts of marine debris to the environment and marine 
species. Additional research is needed to understand and assess the 
impacts of marine debris on diverse species and habitats as well as the 
economic impacts and the dangers to navigation posed by marine debris. 
NOAA is committed to the goal of eradicating marine debris from our 
oceans, and looks forward to working with the Committee to achieve this 
outcome.
    Thank you again for inviting me to discuss H.R. 1171 and the 
benefits of reauthorizing this NOAA program. NOAA would welcome the 
chance to work further with you to advance this legislation.
                                 ______
                                 
    Dr. Fleming. So we now need to move on to Dr. Gilman. Sir, 
you have 5 minutes.

  STATEMENT OF PAUL GILMAN, PH.D., SENIOR VICE PRESIDENT AND 
    CHIEF SUSTAINABILITY OFFICER, COVANTA ENERGY CORPORATION

    Dr. Gilman. Thank you, Mr. Chairman and members of the 
Subcommittee.
    I am an employee of Covanta Energy Corporation, a renewable 
energy company whose principal focus is converting municipal 
solid waste to renewable electricity and steam. We operate 44 
plants around the world that take a community's waste after it 
has done its recycling and convert it to either electricity or 
steam or, in some cases, both.
    For example, a community like Honolulu has the opportunity 
to either send its waste to a landfill or do recycling and 
energy recovery. The facility we operate for the City of 
Honolulu and its recycling program, combined, divert about 90 
percent of the island's waste from that landfill.
    We support the reauthorization bill of H.R. 1171. It 
provides a framework for a partnership that we are currently 
engaged in that I will describe in just a moment. But, more 
importantly, it is a nonregulatory approach for helping coastal 
communities, for improving navigational safety, and protecting 
the environment that is effective and, certainly, timely.
    Our partnership actually had its roots in a program we ran 
with NOAA in the Hawaiian islands called Nets to Energy, where 
fishermen and NOAA could dispose of those nets by recovering 
the energy from them and recycling the metals involved. Our 
partner in that effort was Schnitzer Steel. And when the 
program went national, in the form of Fishing for Energy, 
through a grant to the National Fish and Wildlife Foundation, 
our partnership with the Federal agency of NOAA, NFWF, 
Schnitzer, and ourselves, and many local communities was born. 
Since that time, we have expanded the partnership to 29 sites 
in 9 different States and collected over a million pounds, 1.3 
million pounds, of marine debris.
    Now, what does that do for coastal communities? Well, it 
does a number of important things. First of all, for many in 
the community, the fishermen, the option of disposing of these 
materials at landfills is too costly. They can't afford it. And 
especially the materials that they might recover in the act of 
fishing, they would have to pay for those disposal fees 
associated with that equipment. And we have to excuse them, but 
I think that equipment finds its way right back into the ocean 
under those circumstances. So we provide free disposal. 
Schnitzer and Covanta pay for the cost of transportation of 
those materials, we recycle the metals, we recover the energy 
from what is left over, all at no cost to the local fishermen.
    Dr. Bamford has spoken about the increase in productivity 
for the fisheries; the fact that the ghost fishing, as its 
called, that takes place with nets and traps that are left in 
the environment, has ended; the fact that environmental damage 
from those nets and those lobster and fish traps is avoided by 
removing them from the waters. And, last, we have begun in the 
year 2009, both through our partnership and more broadly 
through NOAA, to fund members of the fishing community to 
actually be engaged in the removal of these materials from the 
waters.
    And let me just say in closing, Mr. Chairman, we don't do 
this kind of program lightly. We are a publicly traded company. 
We have obligations to our shareholders. We believe that the 
program is well thought out, well run, and of significant 
benefit to communities that we support and operate within along 
the coasts of our country.
    We hope that you will add your voice of support by passing 
favorably on this reauthorization bill.
    Thank you.
    [The prepared statement of Dr. Gilman follows:]

      Statement of Paul Gilman, Ph.D., Senior Vice President and 
              Chief Sustainability Officer, Covanta Energy

    Good morning Chairman Fleming, Ranking Member Sablan, and Members 
of the Subcommittee. Thank you for this opportunity to testify. My name 
is Paul Gilman, and I am the Senior Vice President and Chief 
Sustainability Officer of Covanta Energy, the world's largest producer 
of electrical energy using waste as a fuel. Covanta Energy operates 
and/or has ownership positions in 44 energy-from-waste facilities, 
primarily located in North America. We also have additional energy 
generation facilities in North America, including other renewable 
energy production facilities. Covanta's energy-from-waste facilities 
convert 20 million tons of trash annually into 9 million megawatt-hours 
of clean, renewable energy. I am here today to express our support for 
H.R. 1171 and the important efforts carried out by the NOAA Marine 
Debris Program.
    This process of recovering energy from wastes that would otherwise 
be disposed of in landfills is recognized by the U.S. Environmental 
Protection Agency and the European Union as a more sustainable use of 
waste than landfilling. In 2008, Covanta was the recipient of the 
Energy Innovator Award from the U.S. Department of Energy's Office of 
Energy Efficiency and Renewable Energy for providing communities with 
an environmentally sound solution to their solid waste disposal needs.
    In 2008, Covanta Energy expanded its waste to energy efforts to 
address the growing problem of marine debris, and in particular, 
derelict fishing gear. Derelict fishing gear (gear that is lost in the 
marine environment) has been identified by the National Oceanic and 
Atmospheric Administration (NOAA) as a major source of debris impacting 
the marine environment. It can damage ecosystems as nets and heavy 
equipment settle upon the ocean floor or through `ghost fishing,' when 
a net continues to catch fish after it is lost. Gear can also impact 
navigational safety, damage fishing equipment and boats that are in 
use, and have economic repercussions on fishing enterprises and coastal 
communities. Estimates suggest that derelict fishing gear results in 
over $250 million in lost lobster catches and over 1 million lost crabs 
in the Chesapeake Bay region. Additionally, In the Florida Keys 
National Marine Sanctuary it was estimated that up to 25% of the reef 
damage at certain times was due to abandoned trap movement, resulting 
in decreased productivity of fishing grounds.
    To help reduce the impact of derelict fishing gear in U.S. coastal 
waters, the Fishing for Energy Partnership was launched in 2008. This 
is a public-private partnership between Covanta Energy, the National 
Oceanic Atmospheric Administration's (NOAA) Marine Debris Program, the 
National Fish and Wildlife Foundation, and Schnitzer Steel. This 
partnership works closely with state and local agencies, community and 
fishermen groups, and local ports to install bins at convenient and 
strategic locations where fishermen can easily dispose of gear at no 
cost. When these bins fill up, Covanta Energy and Schnitzer Steel 
collect the gear and cover the costs of transporting it to a facility 
where the gear is converted into clean, renewable energy.
    The ``Fishing for Energy'' partnership first originated in the 
Northwest Hawaiian Islands, where over 1.4 million pounds of derelict 
gear have been recovered and recycled, producing enough electricity to 
power 260 homes for an entire year. Since then, the Fishing for Energy 
partnership has expanded to 25 ports across the country, in states 
including New Jersey, Massachusetts, New York, Oregon, California, 
Rhode Island, Virginia, Maine, and Florida. From these 25 sites, we 
have recovered an additional 1.1 million pounds of old or derelict 
gear, and we hope to expand these bins into new regions in the future.
    The public-private Fishing for Energy partnership has considerable 
tangible benefits. First, it reduces the financial burden imposed on 
commercial fishermen when disposing of old gear in landfills. It also 
encourages commercial and recreational fishermen to reel in any 
derelict fishing equipment they might find and deposit of it for free 
at designated drop-off sites near fishing ports. Next, the Fishing for 
Energy Partnership has the added benefit of reducing the impact of 
derelict gear on fishing habitat and target species, helping to reduce 
the economic impact of derelict gear. Lastly, grants from the program 
which we co-fund with our partners, have provided paychecks for 
fishermen who have been actively recovering debris from fishing grounds 
like Long Island Sound.
    In 2010, the Fishing for Energy Partnership was awarded the 
prestigious Coastal America Partnership Award, which is the highest 
level award for partnership efforts from the President of the United 
States. The award recognizes outstanding collaborative, multi-agency 
and multi-stakeholder efforts that leverage and combine resources to 
accomplish coastal restoration, preservation, protection and education 
projects. This award demonstrates how successful our partnership has 
become.
    The Marine Debris Research, Prevention, and Reduction Act of 2006 
provided a framework for the Fishing for Energy Partnership. Through 
this partnership and the research the Act has driven, we have 
established a foundation of knowledge and practice that will, if 
continued, make a real difference for these communities. Because of our 
successes, my private and public sector colleagues in Europe now wish 
and plan to emulate our efforts. H.R. 1171 will calls for the 
continuation of these public-private partnerships to address marine 
debris, and Covanta Energy is fully supportive of the ideas and 
language put forth in the Reauthorization.
    The non-regulatory NOAA Marine Debris Program has and will continue 
to make significant progress to reduce the impacts of marine debris on 
coastal economies, navigation safety, and the environment. Another 
important aspect of the work they carry out includes documenting the 
significant costs of marine debris. This is important as the private 
sector weighs the costs and benefits of engaging in efforts such as 
ours. We have funded our own activities and subsidized those of the 
National Fish and Wildlife Foundation, and as a publicly traded 
company, our obligation to our shareholders makes us think carefully 
about programs like this. However, because this Partnership is well 
organized, well run, and tangibly benefits many coastal communities 
where we operate, we can easily justify the expense.
    Covanta Energy is prepared to continue our work to address marine 
debris and derelict fishing gear through the Fishing for Energy 
Partnership. We hope to expand our efforts to new ports, so fishing 
communities all over the country can participate. We hope that you will 
add your voices of support for H.R. 1171 and the worthwhile efforts 
carried out by the NOAA Marine Debris Program by moving this important 
legislation forward.
                                 ______
                                 
    Dr. Fleming. Thank you, Dr. Gilman.
    We now are at a point when Members will have the 
opportunity to question the witnesses. And I will recognize--
the Chair recognizes myself for 5 minutes.
    I am intrigued by the concept of energy conversion, I think 
is what you are saying. You are taking trash and making energy 
out of it. But if I understand correctly, you select out items 
such as metal and so forth that you can recycle? You do that, 
as well?
    Dr. Gilman. That is correct. After a community does its own 
recycling program--and the communities where we operate 
typically have a higher recycling rate than the national U.S. 
average, some of those communities as high as 50 and 60 percent 
recycling rates--after that is done, we then recover energy 
from what is left over.
    In the process of doing that, we further recover metals, 
both iron-based metals and aluminum and the like. We, as a 
company, recycle over 400,000 tons of metals a year in this 
way.
    Dr. Fleming. All right. And you do this by converting it to 
steam and then electricity, is what I gather.
    Dr. Gilman. That is correct.
    Dr. Fleming. It is interesting, we have a plant that is 
going to be opening in my home state, Louisiana, that is going 
to be using wood products--wood chips, whatever. And we have 
abundant natural gas, and the two together are going to 
actually generate a synthetic gasoline fuel for jet fuel and 
diesel.
    So I really see--I have to tell you, I am a bit of a 
skeptic, in many ways, about some of the recycling ideas and 
some of the alternative energy things. But this, I think, has 
tremendous promise in terms of taking trash, taking things that 
we know if we break those chemical bonds we are going to 
release tremendous energy.
    And as I understand it, the people who--no one really pays 
for this service except the end user that receives the energy. 
That is how you basically generate your revenues.
    Dr. Gilman. That is correct. The Energy Information 
Administration did a report looking at the various subsidies 
associated with all the different forms of producing 
electricity, from nuclear power to coal, et cetera. Energy from 
waste is the least subsidized of all the different sources of 
creating power. It really is supported by the revenues coming 
from the community.
    Dr. Fleming. And, really, I can see where it could be the 
most efficient. And in this case that I am referring to, if we 
can synthetically produce gasoline, which can literally be 
mixed with traditional gasoline, then that helps our energy 
independence, lowers the cost of energy in general. So I see 
that as very much a win-win. So I think we would--I really want 
to follow this concept more, and certainly the work of your 
company.
    Dr. Gilman. Thank you.
    Dr. Fleming. Dr. Bamford, in your testimony you reference 
efforts already under way within the agency that will codify 
what has already been in practice. If the agency is already 
doing these activities, why are all these changes necessary 
instead of just a straight reauthorization?
    Dr. Bamford. The biggest thing--I think the three biggest 
changes--one, the previous bill, the bill that is currently in 
law, focuses mainly on fishing gear. And since 2005, 2006 to 
today, we have learned through research, assessment, and 
working in local communities that derelict fishing gear is not 
the biggest problem in certain areas. You know, we have this 
plastic problem, we have these microplastics. And so, 
continuing to do research, we are looking at more resilient 
communities caused by storms that generate debris.
    So, as it stands now, when we are looking at limited 
resources that the agency has and other agencies have, we have 
to target our resources required based on our requirements and 
our mandates. We don't want to miss these other important 
problems that are causing our coast issues.
    And so what the bill does is actually more clarify NOAA's 
role in marine debris in the ocean and on our coasts. It points 
out the research that needs to be done, the critical 
partnerships that need to be made, and looking at debris that 
really impacts the coastal communities--not necessarily the 
types, but the impacts of those types of debris.
    Dr. Fleming. All right. And I appreciate that, but one of 
the concerns we have in this is creating a whole other layer of 
bureaucracy. You know, one of the problems we have in the 
Federal Government today, that we hear complaints by commerce, 
by farmers, agriculture, is they have to go through and get 
permits from multiple agencies to do one thing.
    And we are worried that that is exactly what this may lead 
to; that by enlarging the comprehensiveness and the involvement 
and pushing back, you know, into the land, into the waterways 
and so forth, that now we end up with, again, just another 
agency, somebody else to go to, somebody else to get 
permission, when we already have the EPA and others.
    Dr. Bamford. That is a very good question. And, actually, 
the Marine Debris Program in NOAA used to sit in Fisheries, the 
regulatory arm of NOAA, back in the 1980s. Since the new bill 
came into authorization in 2006, that was moved to the Ocean 
Service, the nonregulatory arm of NOAA. And that has been a 
tremendous success over the years.
    We had a lot of resistance from the fishing community to 
work with us. We would put out research traps in the 
Chesapeake. We would come back, half of them would be gone. And 
so, you know, people didn't want us to do research because they 
thought it was going to lead to regulation.
    Two years ago, the dredge fisheries in the Chesapeake were 
put out of--stopped, they were required to stop, because the 
dredge fishery was no longer fishing for the winter. So there 
were 90 fishermen put out of work in the State of Virginia. We 
worked with them. Because of granting and programs that we gave 
to them, in terms of understanding what those trips were doing 
and surveying where they were, we put 90 fishermen back to 
work. And that was to remove those 28,000 traps in the 
Chesapeake.
    And those fishermen, when they were pulling them up, seeing 
what was in them, female crabs, they were like--because they 
usually think, oh, this is not a problem, these traps aren't 
causing any problem, you know, debris is not an issue. When 
they actually saw for their own eyes, it was a big eye-opener 
and an education for the fishermen. And I think that 
relationship has gotten better.
    Dr. Fleming. All right. My time is running short, but I 
will give Dr. Gilman a brief opportunity to respond.
    Dr. Gilman. Mr. Chairman, I have been in these communities, 
I have seen the programs at work. They truly are partnerships 
with those local communities.
    In the same town where there are not very complimentary 
bumper stickers relating to the Marine Fisheries Service, you 
will have fishermen coming to the collection sites, coming to 
the different efforts that this program is doing, and thanking 
Dr. Bamford and her people, as well as all the others who work 
on the program from companies like myself on through to 
nongovernmental organizations, for being there. I think they 
are doing it the right way.
    Dr. Fleming. OK. I thank you.
    And I yield to Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Chair, first I would like to request unanimous consent 
to enter into the record several statements in support of H.R. 
1171, the Marine Debris Act Reauthorization Amendments of 2011.
    Dr. Fleming. Without objection, so ordered.
    [NOTE: The information submitted for the record by Ms. 
Hanabusa has been retained in the Committee's official files.]
    Ms. Hanabusa. Thank you very much.
    My question for Dr. Bamford is this. In hearing your 
testimony, you seem to say that the marine debris was basically 
like two major categories. One is the abandoned fish gear and 
traps, and the second, of course, seems to be the natural 
disasters that we did not anticipate. Am I hearing you 
correctly?
    Dr. Bamford. Probably the two base would be the fishing 
gear, which we call the ocean-based sources, and then you have 
the land-based sources, which is the bottles and caps and 
things you see coming.
    I think the new category is the result of these storms. And 
this is something that we--I mean, the intensity we just didn't 
observe before, but now the program is really paying attention 
to this and trying to find ways to make the communities more 
resilient.
    Ms. Hanabusa. And, as you can imagine, I represent Hawaii, 
so the storm issue--I mean, we have all the other issues, but 
the storm issue is something that we are kind of wondering how 
we are going to deal with.
    The natural disasters that we are, of course, really 
concentrating on are the tsunami and earthquake that happened 
in Japan. And we have heard reports that it is making its way 
across the Pacific. Some is that it is going to bypass us and 
it is going to hit the West Coast. Some is that it is going to 
hit the West Coast and come back and hit us. And some is that 
it is going to hit us.
    So can you tell me what NOAA is doing to monitor that? And 
is that monitoring effort part of this reauthorization act?
    Dr. Bamford. The reauthorization would help us do that 
better because it does expand us beyond the gear.
    We are doing a number of different things. One, we are the 
Chair of the Interagency Marine Debris Coordinating Committee, 
so we are working with the other Feds. We put out, with the 
Department of Transportation, a MARAD advisory to vessels in 
the area to report any debris coming in. We are working with 
our partners at the Fish and Wildlife Service at Midway to 
start monitoring and observing any debris coming in. We are 
working with our partners at the Papahanaumokuakea National 
Marine Monument to also do observations.
    We are enhancing our models by using satellite and trying 
to get into overflights to update our models so we can project 
and figure out where the debris is going to end up. But it is 
in the water, and it is eventually going to go somewhere. So I 
think the biggest thing we are doing right now is working with 
the State of Hawaii, other partners, as well as the other Feds, 
in developing an action plan, a response action plan.
    Ms. Hanabusa. Part of the testimony was that it is 
anticipated that it would hit this winter someplace in the 
northern Hawaiian islands. Are you talking there about the 
monument, the Papahanaumokuakea area? Or is it, like, Marianas? 
Where are you referring to that?
    Dr. Bamford. It depends on what model you are talking 
about. There are a lot of different models that are out there. 
The accuracy of those models have not been very well proven. We 
have models that are showing it is going to be at the--that 
would be at the monument, basically, or Midway, they said in 2 
months. But now you will see those are changing and saying it 
is going to get picked up into the gyre, just like what you 
were saying.
    So I think what we want to do is, one, improve the accuracy 
of our models to help you understand what is happening, but, in 
the end, really have a plan to prepare, if this ends up on our 
shores, what do we do with that and how do we address it.
    Ms. Hanabusa. Thank you.
    Dr. Gilman, I am very familiar with Covanta on Hawaii, as 
you know. And we call it HPower, which is your, I guess the way 
you are calling it, waste-to-energy facility.
    Dr. Gilman. Yes.
    Ms. Hanabusa. One of the interesting components of--I guess 
it is your Fishnets to Energy or whatever you want to call that 
program, when you recover that, how much of that material goes 
into, for example, HPower?
    Dr. Gilman. In that case--and it depends on the particular 
load that we get. If it appears to have lots of metals, it 
might go to our partner, Schnitzer Steel, first for them to 
recover as much of that as they can. Oftentimes, they will then 
shear the nets up further so we can for the combustible 
portions of it make steam, make power with it, and then return 
what metal is left for recycling.
    So it will depend on the particular load that we get in. If 
there is very little metal in it, it will come exclusively, 
really, to the energy recovery part of the system.
    Ms. Hanabusa. And one of the issues that I have dealt with, 
with your Covanta as well as our county representatives, is 
whether the various kinds of--the regulations, whether it is 
called Boiler MACT or Utility MACT, is affecting your 
operation. Very quickly, do you anticipate that your operation 
is going to be affected by any of those regulations?
    Dr. Gilman. The Boiler MACT and the Utility MACT do not 
apply to that facility. There is a Municipal Waste Combustor 
MACT that is a little further down the queue that would affect 
that facility. And we are watching that very closely to see how 
the precedence, really, of the Boiler and Utility MACT will 
affect the HPower facility.
    Ms. Hanabusa. Thank you very much.
    Thank you, Mr. Chair.
    Dr. Fleming. I thank the Ranking Member.
    And next I will recognize the gentlelady from Guam.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    And I would like to welcome our witnesses here.
    I would also like to thank my friend and colleague, Sam 
Farr, for introducing H.R. 1171, which is very similar to 
legislation that I sponsored in the 111th Congress. Addressing 
marine debris is a very important issue to my constituents on 
Guam, and I appreciate his leadership on this issue.
    Dr. Bamford, I have a few questions for you. In your 
prepared testimony, you stated today that NOAA has been working 
with partners to assess the unprecedented amount of marine 
debris created by the tragic tsunami and earthquake which hit 
Japan. And I will point out that Guam is a very close neighbor 
to Japan. And earlier this year, that the Interagency Marine 
Debris Coordinating Committee would be executing an assessment 
and response framework.
    I want to just mention, Mr. Chairman, here that many years 
ago on Guam we found debris around our southern and--mainly our 
southern coast, which we have felt came from a medical ship 
that had passed by. And it left onshore syringes and soiled 
linen and that type of thing, which really alarmed Guam and my 
constituents. And it all washed ashore, and, of course, we had 
to send out a crew to look after all of that. So I certainly am 
very, very interested in this particular bill.
    Now, what sort of cooperation have you received from the 
Department of Defense?
    Dr. Bamford. We have received--in terms of this particular 
incident, they are one of the partners on the Interagency 
Marine Debris Coordinating Committee, so they are a member that 
sits at the table and works with us.
    But the Department of Defense actually has been a partner 
in a number of removal programs--in particular, a vessel and 
tires that have been thrown off the coast of Florida, as well 
as nets out of Puget Sound. And this is through this Innovative 
Readiness Training program. They have a program where they 
train the military to do unique activities, and one of them is 
using their divers. And we have used them for removal 
operations----
    Ms. Bordallo. Very good. So you are getting good 
cooperation then.
    Dr. Bamford. Yes, ma'am.
    Ms. Bordallo. Also, Doctor, as evident by the tsunami 
debris which originated in Japan--it is expected to reach U.S. 
waters and beaches in the coming years--there must be an 
international aspect to effectively addressing marine debris.
    So can you tell us what sort of international cooperation 
the Marine Debris Program currently receives? And is there 
anything that could be done legislatively that would improve 
international cooperation?
    Dr. Bamford. Yes, ma'am.
    It was timely. We had an International Marine Debris 
Conference in the State of Hawaii 2 weeks after the tsunami 
hit, and that was timely because it brought the international 
community together, particularly in the Pacific Rim, to address 
this particular issue, start talking about models, start 
talking about collaboration and how we are going to work 
together in terms of modeling the debris and working together 
and addressing it in terms of removal and impacts.
    The reauthorization, this amendment actually has a clause 
in there that talks about continuing to have those types of 
organizations, that type of conference. We would probably do 
that with or without that piece in the bill, but it does 
strengthen our authorization to ensure that that conference 
happens.
    That is probably there because the conference used to 
happen every 5 years. There was a 10-year timeframe between the 
previous one and the one that happened last year.
    Ms. Bordallo. Perhaps, then, we should amend the bill to 
include this.
    Dr. Bamford. Yes, ma'am--in the amendment it does say 
that----
    Ms. Bordallo. It does say?
    Dr. Bamford. Yes, ma'am.
    Ms. Bordallo. Very good.
    Also, a very important question. And I know a lot of 
emphasis is on Hawaii, and they are a State. But can you 
describe any efforts to address marine debris in the U.S. 
territories?
    Dr. Bamford. Yes, ma'am. We actually have a coordinator, 
and she represents the Pacific Islands. And we have been 
working with all the territories to address marine debris. When 
we have conferences, we bring people together from the 
territories. And we have funded projects in the territories, as 
well, that address things from derelict vessels to all types of 
debris, from plastic to fishing gear.
    Ms. Bordallo. Good. Because we are surrounded by water.
    I want to thank you, Mr. Chairman. I would like to 
reinforce my strong support for H.R. 1171, and I urge the 
Committee to continue to move this legislation forward.
    Thank you, and I yield back.
    Dr. Fleming. I thank the gentlelady.
    That is all the questions I have on marine debris. Do any 
other Members have any follow-up questions?
    I would close out with the other issue, of course, that we 
have not discussed much--it is certainly not as controversial 
or as difficult as some of these others--but the conveyance of 
Pascagoula.
    I would give you the opportunity, Dr. Bamford, to let us 
know what the status is of that, where we are, and how close we 
are to a resolution.
    Dr. Bamford. Yes, sir.
    We are working with the city. This has been talked about 
many, many times. The reason why this is in front of you is 
NOAA doesn't have the authority to convey land. This will 
provide the city and the Federal Government, NOAA, to work 
together in terms of a mutual agreement that is beneficial to 
both parties.
    Dr. Fleming. OK. Thank you.
    Well, that, then, concludes the hearing today. I want to 
thank Members and staff for their contributions to this 
hearing.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 12:29 p.m., the Subcommittee was adjourned.]

    [Background submitted for the record by Chairman Fleming on 
the Harris Neck National Wildlife Refuge follows:]

Office of Sheriff of McIntosh County
Darien, Georgia
June 23, 1975
Hon. Herman Talmadge
Washington, D.C.
Dear Herman:
    I am writing you in reference to Harris Neck which the Interior 
Department is now in charge of.
    After the war this area was turned over to McIntosh County with 
certain restrictions. I don't know just how thin transaction was 
between the County and Army at that time. The Army released it to the 
Interior Department.
    At the time the government took the area there were somewhere 
between forty or fifty families of black people who owned the area. 
They were told that they could get their property back after the war.
    I understand some of the people never got paid for their property. 
This is what I'm told by the old colored people. These people (forty or 
fifty families) are all living now in about a twenty acre area where 
they settled about two miles from the old air base at Harris Neck.
    I attended a meeting with the people of that community a few nights 
ago and they had a letter from Congressman Ginn and a letter attached 
from the Interior Department stating that it was an important base of 
operations for Blackbeard Island which is a wildlife refuge.
    Of my own knowledge for all the hunts on Blackbeard Island ninety 
percent of the people leave from Shellman Bluff, and the other ten 
percent leave from Pine Harbor. I doubt if there are more than four or 
five people who leave from Harris Neck on the hunting trips,
    The only thing that the Government needs is Goulds Landing, which 
is outside the enclosed area of Harris Neck, for the use of moving fuel 
and equipment to Blackbeard Island.
    There is 2,600 acres including marsh and high land, of this 
approximately 2,000 acres is high land. Since the war all that area is 
mostly grass and sandspurs and is leased to a man who runs cattle in 
the area.
    In the May Term 1975 of Superior Court of McIntosh County the Grand 
Jury made some recommendations, a copy of which you were supposed to 
have received. In case you did not get same I will quote from their 
recommendations, to-wit: ``We the Grand Jury recommend that our County 
Commissioners and all elected officials of Georgia to pursue the 
acquiring of Harris Neck Wildlife property back to McIntosh County. We 
recommend that copies of this recommendation be sent to all elected 
officials of Georgia and Commissioners of this County.''
    As the State and Federal government has about one third of the 
lands of McIntosh County, such as Blackbeard Island, Sapelo Island, 
Wolfe Island, Butler Island, Champney Island, Camels Island, and Lewis 
Island, and including all of the paper industry land which leaves very 
little for our residents. Since the people of Harris Neck make their 
living from the waters around there, they have to live close in a 
crowded area and the situation is that many families and their sons and 
daughters alt live together. They have to do this since there is no 
other land available in that area to buy, beg, or steal. I think it is 
a damn shame this land can't be used for the people who once owned
    I know Congressman Ginn is a little familiar with this but don't 
think he knows fully the situation of just how bad this is needed.
    All of these people have stated to me they don't mind the 
government having their land if needed but they see the idle area 
wasting away and really need the land to raise crops to eat ana build 
houses for their children and themselves and to help keep them off 
welfare.
    These people will make it on their own with a little land and the 
use of the waters around it so they can fish, crab, and shrimp.
    I believe if this property can be turned over to McIntosh County 
through the proper governing authorities it would greatly benefit 
McIntosh County and the people.
    For further information concerning this matter perhaps it will be 
necessary for an investigation from your office.
    Anything you can do toward helping with this will be appreciated by 
me as well as all the people involved.
    Herman, sorry this had to be such a lengthy letter but wanted you 
to know full particulars.
    Thank you for everything in the past and if I can ever help you 
please do not hesitate to call me. Sincerely,

TOM H. POPPELL.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.013
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.014
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2101.017
                                 
                               <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
